<html>
<title> - PUBLIC LANDS, FORESTS, AND MINING BILLS</title>
<body><pre>[Senate Hearing 113-433]
[From the U.S. Government Publishing Office]





                                                        S. Hrg. 113-433

                PUBLIC LANDS, FORESTS, AND MINING BILLS

=======================================================================

                                HEARING

                               before the

                SUBCOMMITTEE ON PUBLIC LANDS, FORESTS, 
                               AND MINING

                                 of the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                                   ON
                                     

             S. 1049                               S. 2123
 
             S. 1437                               S. 2616
 
             S. 1554                               H.R. 1241
 
             S. 1605                               H.R. 1684
 
             S. 1640                               H.R. 2166
 
             S. 1888                               H.R. 3008
 
                               __________

                             JULY 30, 2014

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                       Printed for the use of the
               Committee on Energy and Natural Resources
                                    ______

                         U.S. GOVERNMENT PRINTING OFFICE 

90-895 PDF                     WASHINGTON : 2014 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
             
               
               
               
















               
               
               
               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                   MARY L. LANDRIEU, Louisiana, Chair

RON WYDEN, Oregon                    LISA MURKOWSKI, Alaska
TIM JOHNSON, South Dakota            JOHN BARRASSO, Wyoming
MARIA CANTWELL, Washington           JAMES E. RISCH, Idaho
BERNARD SANDERS, Vermont             MIKE LEE, Utah
DEBBIE STABENOW, Michigan            DEAN HELLER, Nevada
MARK UDALL, Colorado                 JEFF FLAKE, Arizona
AL FRANKEN, Minnesota                TIM SCOTT, South Carolina
JOE MANCHIN, III, West Virginia      LAMAR ALEXANDER, Tennessee
BRIAN SCHATZ, Hawaii                 ROB PORTMAN, Ohio
MARTIN HEINRICH, New Mexico          JOHN HOEVEN, North Dakota
TAMMY BALDWIN, Wisconsin

                Elizabeth Leoty Craddock, Staff Director
                      Sam E. Fowler, Chief Counsel
              Karen K. Billups, Republican Staff Director
           Patrick J. McCormick III, Republican Chief Counsel
                                 ------                                

           Subcommittee on Public Lands, Forests, and Mining

               JOE MANCHIN, III, West Virginia, Chairman

RON WYDEN, Oregon                    JOHN BARRASSO, Wyoming
TIM JOHNSON, South Dakota            JAMES E. RISCH, Idaho
MARIA CANTWELL, Washington           MIKE LEE, Utah
MARK UDALL, Colorado                 DEAN HELLER, Nevada
AL FRANKEN, Minnesota                JEFF FLAKE, Arizona
BRIAN SCHATZ, Hawaii                 TIM SCOTT, South Carolina
MARTIN HEINRICH, New Mexico          LAMAR ALEXANDER, Tennessee
TAMMY BALDWIN, Wisconsin             JOHN HOEVEN, North Dakota

   Mary L. Landrieu and Lisa Murkowski are Ex Officio Members of the 
                              Subcommittee
                              
                              
                              
                              
                              
                              
                              
                              
                              
                              
                              
                              
                              
                              
                              
                              
                              
                              
                              

                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Barrasso, Hon. John, U.S. Senator From Wyoming...................     4
Heinrich, Hon. Martin, U.S. Senator From New Mexico..............     4
Heller, Hon. Dean, U.S. Senator From Nevada......................    20
Manchin, Hon. Joe, U.S. Senator From West Virginia...............     1
Murkowski, Hon. Lisa, U.S. Senator From Alaska...................     2
Risch, Hon. James, U.S. Senator From Idaho.......................     6
Roberson, Ed, Assistant Director, Renewable Resources and 
  Planning, Bureau of Land Management, Department of the 
  Interior; Accompanied by Dean Ross, Deputy Chief, Law 
  Enforcement, Security and Emergency Services, National Park 
  Service, Department of the Interior............................     7
Smith, Gregory C., Acting Associate Deputy Chief, Forest Service, 
  Department of Agriculture......................................    12
Wyden, Hon. Ron, U.S. Senator From Oregon........................     3

                               APPENDIXES
                               Appendix I

Responses to additional questions................................    33

                              Appendix II

Additional material submitted for the record.....................    41

 
                PUBLIC LANDS, FORESTS, AND MINING BILLS

                              ----------                              


                        WEDNESDAY, JULY 30, 2014

                                       U.S. Senate,
        Subcommittee on Public Lands, Forests, and Mining, 
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.

    The subcommittee met, pursuant to notice, at 9:36 a.m. in 
room SD-366, Dirksen Senate Office Building, Hon. Joe Manchin 
presiding.

      OPENING STATEMENT OF HON. JOE MANCHIN, U.S. SENATOR 
                       FROM WEST VIRGINIA

    Senator Manchin. The Subcommittee on Public Lands and 
Forests and Mining will come to order.
    This morning the subcommittee will consider 10 bills. Many 
of these bills deal with local Federal land matters from around 
the country including Oregon, Alaska, Nevada, California, 
Minnesota, Idaho and Wyoming.
    One such bill is S. 1888 and H.R. 1241, the Inyo National 
Forest Land Exchange Act. This bill authorizes a land exchange 
between the Forest Service and the Mammoth Mountain Ski area, 
Mammoth, California. I understand the House version of this 
legislation passed the House of Representatives by a voice vote 
under suspension of the rules in December of last year. I hope 
we can do our part to move this important legislation through 
our committee in the limited amount of legislative days left in 
Congress.
    A few of the bills today have national policy implications.
    For example, our subcommittee colleague, Senator Heinrich, 
has introduced the Hunt Act. The Hunt Act would require Federal 
land management agencies to identify which lands under their 
management currently lack public access routes for recreational 
users. Then they would be required to come up with a plan to 
provide public access to those lands that have significant 
potential for hunting, fishing or other recreational use. This 
bill, supported by sportsmen organizations such as the National 
Wildlife Federation, Back Country Hunters and Anglers, Trout 
Unlimited and the Bull Moose Sportsmen Alliance and the 
Theodore Roosevelt Conservation Partnership, I have long been 
an advocate for increased hunting and fishing opportunities on 
Federal lands. Look forward to hearing more about the HUNT Act 
today.
    We have a lot of bills to cover this morning with a limited 
amount of time. In addition to statements from Ranking Members, 
Barrasso and myself, we have some of our members, committee, 
here wishing to speak. We're going to recognize first is our 
good friend, Senator Wyden, from Oregon.
    Senator Wyden. I'm happy to go after Senator Barrasso.
    Senator Manchin. I'm not quite finished.
    Senator Wyden. Oh, excuse me. Excuse me.
    [Laughter.]
    Senator Manchin. I've just got a little bit to finish up.
    Senator Wyden. Excuse me.
    Senator Manchin. I'm sorry, Mr. Chairman.
    [Laughter.]
    Senator Manchin. On our first panel we will be hearing from 
the Forest Service and the Bureau of Land Management.
    I want to thank you all for joining us and I kindly ask 
that you keep your remarks as brief as possible in the interest 
of time.
    With that, I would like to turn to Ranking Member Barrasso, 
who is going to now defer to our friend and Chairman, Senator 
Wyden, from Oregon.
    Senator.
    [The prepared statement of Senator Murkowski follows]
Prepared Statement of Hon. Lisa Murkowski, U.S. Senator From Alaska on 
                                S. 1605
    Mr. Chairman, thank you for scheduling this hearing on a number of 
public lands bills. I wanted to take a moment briefly to talk about a 
bill I have sponsored that is included on the agenda for this hearing--
S. 1605 which would reinstate Michael Faber, an Alaska Native into his 
rightful status respecting Sealaska Corporation, an Alaska Native 
corporation formed under the Alaska Native Claims Settlement Act of 
1971 (ANCSA), a settlement of all aboriginal claims within the state of 
Alaska between Alaska Natives and the federal government.
    This bill will not have a large impacts on society, but it is huge 
from an equity standpoint, because it fixes a mistake by a federal 
agency. And we in Congress should never be so busy that we don't take 
the time to remedy a clear mistake by a federal agency, even if that 
mistake only affects a few individuals.
    Michael Faber is an Army veteran who for the past 40 years has been 
trying to get the federal government to fix a mistake. In the mid-1960s 
Mr. Faber joined the U.S. Army and was stationed in Germany. At some 
point in 1976, while Mr. Faber was on duty, and consequently had an 
out-of-Alaska mailing address, someone in BIA moved to shift his 
enrollment from the Sealaska Corporporation to the then newly created 
13th Corporation based in Seattle.
    Under the law, Mr. Faber was sent a ballot that he was required to 
sign to accept the shift in enrollment. However, he never received the 
ballot; in fact, his ballot was returned to BIA-- unopened and 
unsigned.
    Mr. Faber never received this ballot because he was in and out of 
rehabilitation hospitals and clinics at different locations in Europe 
and the Lower 48 States, recovering from bad burns. It wasn't until 
after his recovery that he fully realized he had been shifted from 
Sealaska to the 13th Corporation, and it was then that he began his 
effort to be reenrolled.
    The record indicates that as early as 1991 BIA acknowledged it made 
an error in shifting Mr. Faber's enrollment without his approval. 
Unfortunately, by then, BIA believed it did not have the legal 
authority to reenroll Mr. Faber in the Sealaska Corporation. 
Admittedly, this case has been complicated by that fact that Mr. Faber 
moved to the community of Metlakatla, Alaska in the mid-1990s to work 
as the Executive Director of the Metlakatla Housing Authority. That 
complicated this case since Metlakatla, on the Annette Island Indian 
Reservation, is the only place in Alaska that did not participate in 
the claims settlement act. This legislation, to prevent any precedents 
and to clarify the factual record, requires Mr. Faber to surrender or 
abrogate any possible benefits from the the Metlakatla Indian Community 
before his enrollment in the Sealaska Corporation can take effect. It 
in no way alters the Section 19(a) provisions of ANCSA involving 
Metlakatla reservation status.
    Mr. Faber has been waiting for nearly 40 years for someone to 
champion his quest to be restored to the Sealaska Corporation, a legacy 
he wants largely for his children. This legislation will allow Mr. 
Faber retroactive benefits only to 2011. In that year, Sealaska's board 
voted to welcome Mr. Faber back to its membership. The bill sets no 
precedents for other Natives to seek changes in their ANCSA 
enrollments.
    This bill will simply treat Mr. Faber and his descendants humanely 
and formally recognize their legal and cultural status as Alaska 
Natives. I hope that we will see fit to pass this bill promptly-- truly 
the right and just result in this case given the BIA's error. It is 
least we owe this Alaska Native military veteran to honor his service 
to the country.

           STATEMENT OF HON. RON WYDEN, U.S. SENATOR 
                          FROM OREGON

    Senator Wyden. Chairman Manchin, thank you and to my good 
friend from Wyoming, once again Senator Barrasso is above and 
beyond in collegiality. I thank him for today is going to be a 
hectic day. I'm trying to forge a bipartisan agreement on 
transportation. I thank both of my colleagues.
    I'll be very brief.
    Want to just touch on S. 1437, the bill to remove the 
Federal reversionary interest in reserve mineral rights in 290 
acres of land that Oregon State University operates the 
Hermiston Agricultural Research and Extension Center on.
    Hermiston, an important part of Oregon's rural life, has 
been well served by agriculture experimentation work for over 
100 years. The Oregon Congressional Delegation wants to make 
sure it can do it for the next 100 years.
    We're lucky to have Oregon State University as a hub of 
agricultural research and innovation to train the next 
generation of farmers, ranchers and foresters. Over the past 60 
years Oregon State University has run the Hermiston 
Agricultural Research and Extension Center and consistently 
it's helped to provide solutions for the region's many Ag 
growers.
    The Columbia Basin is Ag country. The Ag Research Center is 
going to help ensure it stays that way by identifying new crop 
opportunities and improving production practices that save 
money. Just as agriculture in the Columbia Basin has grown by 
leaps and bounds since 1954 so has Hermiston.
    This bill would replace the Federal clause in the original 
land grant which was meant to keep the land operating as an Ag 
center with the direction that any proceeds from a sale or a 
lease of the land must be used by the State to advance 
agricultural research. With this change if there ever comes a 
time when Oregon State needs to move the Ag Center outside of 
an expanded urban growth area to a more rural location it will 
be able to do so.
    A similar bill has been introduced in the other body. I 
want to thank Chairman Manchin and Senator Barrasso for giving 
me this opportunity so that the Senate can start talking about 
following suit and give Oregon State, Hermiston and the 
Columbia Basin region the flexibility they need to continue 
their important agricultural research.
    Again, with my thanks to Chairman Manchin and Senator 
Barrasso, I very much appreciate the courtesy. I also have a 
written question for Mr. Roberson with respect to the 
Administration. We want to work closely with them and we'll 
submit that for the record in writing.
    Thank you, Mr. Chairman.
    Senator Manchin. Thank you, Senator. This time I will turn 
to our Ranking Member, Senator Barrasso.

         STATEMENT OF HON. JOHN BARRASSO, U.S. SENATOR 
                          FROM WYOMING

    Senator Barrasso. thank you very much, Mr. Chairman, for 
convening this subcommittee hearing. I welcome each of our 
witnesses today.
    We have 10 bills on the agenda, some of which our House 
colleagues have passed and sent to us.
    I want to touch briefly on one of those House bills, H.R. 
1684, to consolidate the historic Ranch A in my home State of 
Wyoming, sponsored by Representative Lummis.
    Ranch A is a historic property with a rich history. The 
Ranch A name comes from Moses Annenberg, a European immigrant 
who bought the land and employed craftsmen to build the lodge, 
guest cabins, barns and other supporting ranch structures. At 
one point in the ranch's history it was used as a fish 
hatchery. When the federally owned fish hatchery was closed in 
1997 the Ranch was conveyed to the State of Wyoming. The Ranch 
A Restoration Foundation began at that time working to restore, 
maintain and operate the then run down property.
    When Ranch A was conveyed to the State and oversight 
retained 10 acres under Federal ownership one of the buildings 
and infrastructure owned by the State is actually located on 
those 10 acres. The Ranch A Consolidation and Management Act 
Improvement Act would convey these 10 acres of National Forest 
System land to the State of Wyoming and allow for the 
foundation to make additional use enjoyment and improvements to 
the facilities.
    Mr. Chairman, I would also submit for the record a letter 
from the Wyoming Office of State Lands and Investments to the 
House Natural Resource Public Lands Subcommittee requesting 
favorable consideration of H.R. 1684.
    Senator Barrasso. I also want to flag an issue with one of 
the other bills before us, S. 1554. My colleague, Senator 
Heinrich is sponsoring this bill to address the lack of public 
access to back country hunting and fishing is a worthy goal. I 
do have some concerns that the bill, as drafted, may have 
unintended consequences of pressing upon the rights of private 
property owners on State owned lands.
    So I'd like to work with my colleague, Senator Heinrich, to 
address these issues.
    Thank you, Mr. Chairman. I look forward to the hearing and 
hearing more about that legislation today.
    Senator Manchin. Thank you, Senator Barrasso.
    At this time we will move to Senator Heinrich, who will 
make a statement on his legislation the HUNT Act.
    Senator Heinrich.

        STATEMENT OF HON. MARTIN HEINRICH, U.S. SENATOR 
                        FROM NEW MEXICO

    Senator Heinrich. Thank you.
    Let me start by just saying I look forward to working with 
Ranking Member Barrasso. Obviously the HUNT Act is meant to 
deal in easements purely on a voluntary basis. We'll be happy 
to work with you on that.
    Chairman Manchin, Ranking Member Barrasso, I want to thank 
you both for allowing this hearing today on the HUNT Act.
    As an avid public land hunter myself I know firsthand that 
our public lands provide some of the best hunting and fishing 
opportunities for American families, some of the best hunting 
opportunities in the world really in places like Wyoming and 
Colorado, Montana and New Mexico. But too often in recent years 
hunting and fishing lands have been made inaccessible by the 
lack of a public road or trail to be able to reach them. In 
many cases the land management agencies don't even know that 
they have lands that the public can't access.
    S. 1554, the HUNT Act would require the Federal land 
management agencies to identify lands under their jurisdiction 
and management that lack a reasonable public route to access 
them and come up with a plan to provide access to those lands 
that will have a significant potential, that have a significant 
potential, for hunting, fishing or other recreational use. 
Those plans might include purchasing an easement from a willing 
neighboring land owner or working with the State land office to 
secure public access across State trust land.
    The bill targets lands that are technically open to the 
public but are impossible to reach legally because there is no 
public trail or road leading to them. It would help provide 
access to those lands by opening up existing roads and trails 
to public use.
    Let me give you a little bit of an example.
    Last night I was watching an episode of a show called Fresh 
Tracks with Randy Newberg. It's on the Sportsman's Channel. 
Randy Newberg is a board member of the Rocky Mountain Elk 
Foundation.
    In this particular episode he takes his son hunting after 
returning from college and they literally have to helicopter in 
to public land in Montana because there's no legal way for them 
to get to that land.
    Last, the bill would require 1.5 percent of funds provided 
by the Land and Water Conservation Fund each year to be used 
for the purchase of easements or rights of way from willing 
sellers that would improve access to public lands for hunting, 
fishing and other recreational uses. In 2014 this would have 
provided $4.6 million dedicated to providing access to public 
lands. In many cases public access can be gained by working 
cooperatively with local land owners.
    In New Mexico the BLM worked with Freeport-McMoRan to allow 
the public to use 3 miles of an existing road on the company's 
private land to access the Alamo Hueco Wilderness Study area in 
Southwestern New Mexico, an area with tremendous hunting 
opportunities that was completely inaccessible until 2012.
    Mr. Roberson, actually, I want to recognize work to open up 
access to Cooke's Peak, another Wilderness Study area in New 
Mexico after access was closed off by a local landowner.
    But we still have far too many cases in too many areas 
where the public can't get to public lands.
    In Northeastern New Mexico the Sabinoso Wilderness is 
16,000 acres of narrow mesas, rugged canyons and spectacular 
grasslands, home to mule deer, Barbary sheep and elk. But 
without a legal road to get there the public can't visit it.
    In many cases we don't even know what public lands lack 
public access. A study last year by the Center for Western 
Priorities identified more than 4,000,000 acres of inaccessible 
public lands in just 6 Western States. The study's authors say 
that their method of gauging access through GIS analysis almost 
certainly undercounts rather than over counts the number of 
inaccessible acres.
    Hunting and fishing are an integral part of our American 
heritage but without our public lands in the West that 
tradition will be lost.
    Thank you again, Mr. Chairman, for considering this bill 
today. I'll yield back my time.
    Senator Manchin. Thank you, Senator.
    At this time we'll turn to Senator Jim Risch.

          STATEMENT OF HON. JAMES RISCH, U.S. SENATOR 
                           FROM IDAHO

    Senator Risch. Thank you, Mr. Chairman. Thank you for 
holding this hearing.
    I'm here today to talk about S. 2616, sponsored by myself 
and co-sponsored by Senator Crapo. The title of the Act is the 
Idaho County Shooting Range Land Conveyance Act. It, you know, 
works to transfer 31 acres from the BLM to Idaho County. It is 
to be used specifically for a shooting range.
    This is widely supported in the area because they need a 
particular place to do this. The Sheriff's office is very much 
in favor of this. They need it for training, also for safety 
for training for kids as they learn to shoot.
    To my knowledge there's really no opposition to this. It's 
a good piece of legislation. It is unfortunately designated for 
a potential of other use and therefore the BLM can't transfer 
it directly so it takes an Act of Congress.
    In any event I'm under--I understand that the agency wants 
reversionary clause that if it's not used for public service 
that it goes back. We have no objection to that at all. I think 
it's a good piece of legislation. It should pass.
    Thank you, Mr. Chairman.
    Senator Manchin. Thank you.
    Senator Heinrich.
    Senator Heinrich. Mr. Chair, I would just ask quickly for 
unanimous consent to offer a couple of letters, recent letters, 
into the record in support of the HUNT Act. The American 
Wildlife Conservation Partners which includes groups like the 
Archery Trade Association, Boone and Crockett Club, 
Congressional Sportsmen Foundation, Dallas Safari Club Mule 
Deer Foundation, National Wild Turkey Foundation and many other 
sportsmen groups sent a recent letter.
    I'd ask unanimous consent to enter that into the record.
    Senator Manchin. Without objection.
    Senator Heinrich. As well as the letter from a number of 
New Mexico Sportsmen groups including the Dona Ana County 
Associated Sportsmen, New Mexico Wildlife Federation, TU, the 
Wild Turkey Sportsmen Association, Back Country Horsemen and 
quite a few others.
    I would also ask unanimous consent.
    Senator Manchin. Without objection, so entered into the 
record.
    Senator Manchin. With that we will have our 2 panelists. 
Mr. Roberson and Mr. Smith come forward, please.
    What we'll do, if you don't mind how--if you all have a 
preference to who starts and who doesn't start. If we can we'll 
just go left to right to Mr. Roberson.
    Mr. Roberson is Assistant Director, Renewable Resources and 
Planning, Bureau of Land Management, Department of the 
Interior.
    Mr. Roberson, it's good to have you at our subcommittee 
hearing here. We'd love for you to go ahead and give us your 
statement.

    STATEMENT OF ED ROBERSON, ASSISTANT DIRECTOR, RENEWABLE 
 RESOURCES AND PLANNING, BUREAU OF LAND MANAGEMENT, DEPARTMENT 
 OF THE INTERIOR; ACCOMPANIED BY DEAN ROSS, DEPUTY CHIEF, LAW 
  ENFORCEMENT, SECURITY AND EMERGENCY SERVICES, NATIONAL PARK 
              SERVICE, DEPARTMENT OF THE INTERIOR

    Mr. Roberson. Thank you, Mr. Chairman.
    Mr. Chairman, ranking member and members of the Senate 
Subcommittee, thank you for the opportunity to present the 
views of the Department of Interior on 7 bills today. I'm 
joined by Dean Ross and Brenda Pierce of the National Park 
Service.
    Dean is the Deputy Chief for Emergency Services and Brenda 
is the Acting Deputy Associate Director for Natural Resources 
and Stewardship in Science for the Park Service.
    Mr. Spike Bighorn from the Bureau of Indian Affairs, he is 
the Associate Deputy Director for Bureau of Indian Affairs.
    They are available to respond to questions you have with 
regard to their agencies and the bills related to them.
    I will briefly summarize our position on each of the bills 
and ask that the entirety of the written statement be included 
for the record.
    S. 1640, the Pinon-Juniper Related Projects Implementation 
Act amends the Lincoln County Lands Act of 2000 and the Lincoln 
County Conservation Recreation Development Act of 2004 to allow 
funding from the Federal special account for those acts to be 
used for restoration projects in Pinon-Juniper dominated 
landscapes and other purposes in Lincoln County, Nevada. These 
acts have been instrumental in providing for community growth 
while protecting public lands and resources.
    The BLM supports the goals of S. 1640 and looks forward to 
working with the bill's sponsor and the subcommittee on 
concerns that we have discussed in our written testimony.
    With regard to S. 1437 which Chairman Wyden just spoke 
about. It would release the reversionary interest of the United 
States and lands conveyed to the State of Oregon for the 
Hermiston Agricultural Research Extension Center. The extension 
lands were conveyed below fair market value and the 
reversionary clause has ensured that it is used solely for 
public purposes.
    The BLM supports the goal of conveying the remaining 
interest in the parcel and could support the S. 1437 if amended 
to ensure the payment of fair market value for reversionary 
interest in these parcels which is consistent with previous 
legislative proposals.
    With regard to Senator Risch's discussion on S. 2616, it 
requires the Secretary to convey a 31 acre parcel of public 
land in Idaho to Idaho County to be used for a shooting range 
subject to valid existing rights without consideration.
    The BLM supports conveyance but would like to work with the 
sponsors on an amendment to add the reversionary clause to 
ensure the parcel is used as a shooting range and for other 
public purposes consistent with the legislative proposal.
    With regard to Senator Heinrich's 1554, the HUNT, 
Unrestricted on National Treasures Act it would require BLM, 
the National Park Service, Fish and Wildlife Service and the 
U.S. Forest Service to produce a report identifying all parcels 
greater than 640 acres for which hunting, fishing or other 
recreational uses are allowed by law but without adequate 
public access.
    S. 1554 further requires the agencies to evaluate the 
potential for these uses on other parcels on these parcels and 
to develop strategies for acquiring access to those parcels.
    The Department strongly supports the goal of making access 
to both public lands and to information about the public lands 
available to the public. The Department would like to work with 
the sponsor and the committee, the subcommittee, to ensure that 
the bill's reporting requirements can be met with our existing 
data and staffing limitations.
    S. 1049 and H.R. 2166 direct the Secretaries of Interior 
and Agriculture to expedite access to certain Federal lands 
under the administrative jurisdiction of each Secretary for 
Good Samaritan search and recovery.
    The Department supports these bills with amendments 
detailed in our written statement.
    S. 2123, Land Exchange in Minnesota. The Department 
supports S. 2123, the School District 318 Land Exchange Act. 
The bill directs the Secretary to accept an offer of exchange 
for certain lands, Federal lands and non-Federal parcels in 
Grand Rapids, Minnesota.
    We appreciate the efforts of the sponsors and the committee 
to resolve a long standing request of the School District 318.
    S. 1605 would correct the long standing clerical error in 
the enrollment of Mr. Michael G. Faber in the Sealaska Native 
Regional Corporation in Alaska.
    The Department does not oppose S. 1605, but has concerns 
about the Secretary's ability to provide the relief that the 
bill offers.
    Thank you for the opportunity to testify on these bills. We 
look forward to working with the sponsors and the subcommittee 
and would be happy to answer any questions.
    [The prepared statement of Mr. Roberson follows:]
   Prepared Statement of Ed Roberson, Assistant Director, Renewable 
  Resources & Planning, Bureau of Land Management, Department of the 
                          Interior, on S.1640
    Thank you for the opportunity to present the views of the 
Department of the Interior on S. 1640, the Pinyon-Juniper Related 
Projects Implementation Act. S. 1640 authorizes funding for pinyon-
juniper thinning and habitat enhancement projects through the Lincoln 
County Land Act of 2000 (LCLA) and the Lincoln County Conservation, 
Recreation, and Development Act of 2004 (LCCRDA). The Bureau of Land 
Management (BLM) appreciates the positive impacts LCLA and LCCRDA have 
had on land-management in Lincoln County. The BLM supports many of the 
goals of S. 1640 and we look forward to working with the bill's sponsor 
and the Subcommittee on the concerns discussed below and on the 
continued implementation of LCLA and LCCRDA.
Background
    The Lincoln County Land Act of 2000 (LCLA, P.L. 106-298) provides 
for the disposal of 13,500 acres of public land in Lincoln County, 
Nevada, with the proceeds paid to the State of Nevada (5 percent), 
Lincoln County (10 percent) and a special account in the U.S. Treasury 
(85 percent). Under the LCLA, the Secretary of the Interior can expend 
revenue held in the special account on archaeological resources 
activities; development of a Multi-Species Habitat Conservation Plan 
(MSHCP) in the County; acquisition of environmentally sensitive lands; 
and reimbursement of costs associated with land sales preparation and 
processing public land use authorizations as well as rights-of-way 
stemming from the development of the conveyed lands.
    The Lincoln County Conservation, Recreation, and Development Act of 
2004 (LCCRDA, P.L. 108-424) provides for the disposal of up to 90,000 
acres of public land in Lincoln County, Nevada, with the proceeds paid 
to the State of Nevada (5 percent), Lincoln County (10 percent) and a 
special account in the U.S. Treasury (85 percent). Under the LCCRDA, 
the Secretary of the Interior can expend revenue from the special 
account on archeological resources activities; reimbursement of costs 
associated with preparing land sales; development and implementation of 
a MSHCP; processing and implementing the Silver State Off-Highway 
Vehicle (OHV) Trail management plan; and costs related to enforcement 
of designated wilderness areas.
    The land sales authorized by the LCLA were completed in 2005 and 
grossed over $47 million. About $31 million currently remains in the 
LCLA Federal special account. The initial land sale under the LCCRDA 
took place this year, and the current LCCRDA Federal special account 
balance is $3.1 million. To guide the expenditures over the next 10 
years and ensure the long-term stability of the program, the BLM, in 
consultation with the County, developed the ``LincolnCounty Business 
Plan'' in January 2013, which identifies the priorities for the LCLA 
and LCCRDA Federal special accounts. To date, the BLM has used the 
funds to acquire sensitive lands for conservation, to complete 
development of the MSHCP, and to finalize management plans for 
wilderness areas and the OHV trail. The BLM has also undertaken 
archeological inventories on over 46,000 acres with the funding. 
Additional lands sales under the LCCRDA have been identified for 2015 
and 2016, in coordination with the County. These Acts have been 
instrumental in providing valuable resources for both Lincoln County 
and the BLM.
S. 1640
    S. 1640 amends the Lincoln County Land Act of 2000 (LCLA) and the 
Lincoln County Conservation, Recreation, and Development Act of 2004 
(LCCRDA) to allow funding from the Federal special accounts for those 
Acts to be used for restoration projects in pinyon-juniper dominated 
landscapes. S. 1640 will allow LCLA funding to be used for 
implementation of the MSHCP. Under the bill, funds from the Acts could 
be used to pay for planning activities addressing proposed land-use 
authorizations, rights-of-way for development of conveyed land, and 
projects in the Dry Lake Valley North Solar Energy Zone. The bill would 
waive cost-recovery fees for processing of local or regional government 
right-of-way applications and allow the County to use proceeds of the 
Acts for economic development activities. Under the bill, the Secretary 
would be required to establish cooperative agreements for law 
enforcement and planning activities for wilderness, cultural resources 
management, and land disposal and related land-use authorizations under 
the Acts, as well as for the Silver State OHV Trail designated by the 
LCCRDA. Finally, the bill amends the land withdrawal in the LCCRDA for 
a utility corridor.
    The BLM shares the sponsor's strong interest in treating rangelands 
that are seeing incredible rates of encroachment from pinyon-juniper. 
The BLM's Ely District Resource Management Plan identifies treatment 
for more than 700,000 acres of pinyon-juniper woodland--projects which 
could improve habitat for the Greater Sage-Grouse and other sage-brush 
dependent wildlife species, provide opportunities to establish native 
vegetation, and reduce the risks of resource damage from catastrophic 
wildfires. However, the BLM encourages Congress to consider whether 
LCLA and LCCRDA Federal special accounts are the appropriate mechanisms 
to support these projects.
    The LCLA and LCCRDA have been instrumental in providing for 
community growth while protecting public land resources. The BLM 
acknowledges the careful consideration of the Congress, in close 
coordination with local governments and stakeholders, in establishing 
the current uses of the LCLA and LCCRDA funding. The BLM has worked 
closely with the County to prioritize implementation of the provisions 
of the Acts, and the Lincoln County Business Plan carefully lays out 
these funding priorities over the next 10 years. Longer-term funding 
also is envisioned for continued implementation of conservation 
projects, protection of archaeological resources, and support for 
future land sales to provide for the County's economic growth.
    If the Congress chooses to revisit the allocations of the LCLA and 
LCCRDA, the BLM recommends that, to maximize consistency with ongoing 
efforts and existing law, the sponsor and the Committee consider 
language similar to that found in the White Pine County Conservation, 
Recreation, and Development Act of 2006 (P.L. 109-432), which amended 
the uses of funding under the Southern Nevada Public Land Management 
Act (P.L. 105-263) to allow for pinyon-juniper management, as well as 
other ecosystem health actions in eastern Nevada. The BLM also would 
like to ensure that the agency and the County continue to collaborate 
on funding priorities if S. 1640 is enacted.
    Additionally, the BLM currently works closely with the County on 
projects related to these Acts and has existing authorities to utilize 
cooperative agreements under the Federal Land Policy and Management Act 
(FLPMA) similar to the provision in S. 1640 requiring cooperative 
agreements for law enforcement and planning. The BLM also does not 
support the provision which would expand the authority under the Acts 
to allow for payment of costs for certain environmental reviews for 
proposed land use authorizations and rights-of-way to include the Dry 
Lake Valley North Solar Energy Zone. Under FLPMA and the BLM's 
Regulations (43 CFR Subpart 2805), project proponents pay for costs 
associated with processing right-of-way applications, and this 
provision could set an unfavorable precedent. Finally, the BLM supports 
the provision (Sec. 4) of the bill, amending the withdrawn lands, but 
has technical corrections to ensure that the entirety of the unused 
land is released from the corridor withdrawal.
Conclusion
    The BLM looks forward to working with the sponsor and the 
Subcommittee to further the various land management goals in Lincoln 
County. Thank you for the opportunity to testify on these important 
issues. I would be happy to answer any questions.
                                s. 1437
    Thank you for inviting the Department of the Interior to testify on 
S. 1437, which provides for the release of the interests of the United 
States in lands used for the Hermiston Agricultural Research and 
Extension Center in Umatilla County, Oregon. While we cannot support 
the bill as written, the Bureau of Land Management (BLM) could support 
S. 1437 if amended to ensure the payment of fair market value for the 
conveyance of reversionary and reserved mineral interest in these 
parcels to the State of Oregon, consistent with previous legislative 
proposals. The Department of the Interior defers to the Department of 
Agriculture with regard to a possible contingent interest of the 
Agricultural Research Service.
Background
    The BLM regularly leases and conveys lands to local governments and 
nonprofit entities for a variety of public purposes. These leases and 
conveyances are typically accomplished under the provisions of the 
Recreation and Public Purposes Act (R&PP) or through direction supplied 
by specific Acts of Congress. Such direction allows the BLM to help 
states, local communities, and nonprofit organizations obtain lands at 
no or low cost for important public purposes, including research 
facilities. Because these lands are conveyed at far below market value, 
they include a reversionary clause requiring that lands be used for 
specific public purposes or revert to the Federal government. Over the 
years, the BLM has addressed many administrative and legislative 
requests to release the Federal government's reversionary interest in 
such lands. In these instances, the BLM has consistently required the 
payment of fair market value for the interest on behalf of the American 
taxpayer.
    In 1950, Public Law 81-825 authorized the Secretaries of 
Agriculture and the Interior to convey certain lands in Montana, 
Nebraska, Nevada, New Mexico, Oregon, and Wyoming to the respective 
States for no consideration for the development of agricultural 
research and cooperative extension facilities. Among the lands included 
in the bill were public domain lands in Hermiston, Oregon. The 1950 law 
further provided that any such conveyances reserve the minerals in the 
land to the United States. In 1954, the BLM issued a patent (#166221) 
conveying approximately 450 acres to the State of Oregon for the 
cooperative agricultural experimental work of the Department of 
Agriculture and the State of Oregon, with a clause requiring that if 
the State of Oregon ceases to use the property for agricultural 
experimental work or attempts to ``alienate'' all or any part of the 
land, all right, title, and interest in the property shall revert to 
the United States. Subsequently, roughly 170 unused acres of the 
conveyance were returned to the BLM by Oregon State University.
S. 1437
    S. 1437 would release the reversionary as well as the reserved 
mineral interests of the United States in approximately 290 acres of 
land currently held by Oregon State University for the Hermiston 
Agricultural Research and Extension Center. The BLM supports the goal 
of conveying the reversionary interest on these parcels to the State of 
Oregon. As with previous such proposals, we recommend amending the 
legislation to ensure the payment of fair market value for the 
reversionary and mineral interest and to ensure that the State's 
acceptance of the interest is voluntary. The value of the reversionary 
and mineral interest would be established through an appraisal by the 
Department of the Interior's Office of Valuation Services. Upon receipt 
of the appraisal, the State could make a decision about purchasing the 
reversionary and mineral interest, thus acquiring the land outright. We 
further recommend that all costs associated with this conveyance, 
including the appraisal, be the responsibility of the recipient.
    We also recommend that the bill be amended so that the conveyance 
occurs subject to valid existing rights. In addition, the BLM would 
like to work with the sponsor on a few technical concerns. Finally, the 
BLM believes that, according to the conditions of Patent No. 166221, 
the Agricultural Research Service (ARS) has a contingent interest in 
the continued use of the property for agricultural research purposes. 
We defer to the Department of Agriculture regarding any contingent 
interest that ARS may have.
Conclusion
    Thank you for the opportunity to testify. We look forward to 
working with the sponsor and the Committee to address the land use 
needs of the State of Oregon.
                                s. 2616
    Thank you for the opportunity to present the views of the 
Department of Interior on S. 2616, the Idaho County Shooting Range Land 
Conveyance Act, which conveys a 31-acre parcel of BLM-managed public 
land to Idaho County, Idaho, for use as a shooting range. The Bureau of 
Land Management (BLM) supports the conveyance and supports S. 2616 with 
an amendment to add a reversionary clause if the land was to be used 
for non-public purposes.
Background
    Idaho County is the largest county in Idaho, covering over 5.4 
million acres of land in north-central Idaho. Approximately 4.4 million 
acres of these steep, heavily-forested lands are administered by the 
U.S. Forest Service; the BLM manages 91,000 acres of public land in the 
County, most at lower elevations. While recreational opportunities in 
Idaho County are abundant, the steep topography and densely-forested 
landscape yield few opportunities for safe recreational target 
shooting.
    The BLM has been working in partnership with Idaho County for 
several years to address the County's strong interest in the 
establishment of a shooting range site on a 31-acre parcel of public 
land near Riggins. The parcel is currently being used recreationally by 
local hunters and residents of Riggins. The County would also like to 
use the range for law enforcement purposes. There is no sanctioned 
shooting range in Idaho County, and the BLM understands that the County 
is willing to regulate and maintain the shooting range for both 
recreational and law enforcement use.
    The BLM regularly leases and conveys lands to local governments and 
nonprofit entities for a variety of public purposes. These leases and 
conveyances are typically accomplished under the provisions of the 
Recreation and Public Purposes Act (R&PP) or through direction supplied 
by specific Acts of Congress. Such direction allows the BLM to help 
states, local communities, and nonprofit organizations obtain lands at 
no or low cost for important public purposes, including shooting 
ranges.
    In June of 2011, Idaho County submitted an R&PP application to the 
BLM for a public shooting range on the 31-acre parcel near Riggins. The 
parcel is located east of the Lower Salmon River and State Route 95, 
and is within a portion of the Lower Salmon River corridor that was 
identified by the BLM for potential inclusion in the National Wild and 
Scenic River System. Additionally, the parcel lies within an Area of 
Critical Environmental Concern (ACEC) established by the BLM due to the 
presence of MacFarlane's four-o'clock, which is listed as a threatened 
plant. Surveys have determined that the plant is not present on this 
parcel. Nonetheless, the parcel cannot be transferred administratively 
because of these restrictions.
S. 2616
    S. 2616 requires the Secretary of the Interior to convey a 31-acre 
parcel of public land to Idaho County to be used as a shooting range, 
subject to valid existing rights and without consideration. The County 
is required to pay all survey costs and other administrative costs 
associated with the conveyance, and to release the United States from 
liability for uses on the land prior to the conveyance. The BLM notes 
that inventories and surveys conducted when analyzing the County's 2011 
conveyance proposal have already been completed, and we believe these 
prior analyses should reduce conveyance costs for the County. The 
County is also required to accept reasonable terms and conditions that 
the Secretary determines necessary.
    The BLM supports the conveyance, but would like to work with the 
sponsor on an amendment to S. 2616. As is standard with these types of 
conveyances, we recommend the addition of a reversionary clause to 
ensure that the parcel continues to be used as a shooting range or for 
other public purposes. If an effort were made to sell the land or use 
it for non-public purposes it would revert to the Federal government at 
the discretion of the Secretary.
Conclusion
    Thank you again for the opportunity to testify in support of S. 
2616, the Idaho County Shooting Range Land Conveyance Act. We 
appreciate the sponsor's work on this legislation, and we look forward 
to working with the sponsor and the Committee to meet the needs of 
Idaho County.

    Senator Manchin. Thank you, Mr. Roberson.
    To Mr. Smith, he's the Acting Associate Deputy Chief, 
Forest Service, Department of Agriculture.
    Mr. Smith.

 STATEMENT OF ACTING ASSOCIATE DEPUTY CHIEF GREGORY C. SMITH, 
     NATIONAL FOREST SYSTEM, FOREST SERVICE, DEPARTMENT OF 
                          AGRICULTURE

    Mr. Smith. Thank you, Mr. Chairman.
    Mr. Chairman, my name is Greg Smith and I thank you for the 
opportunity to testify, the Acting Associate Deputy Chief, U.S. 
Forest Service.
    First, S. 1049 directs the Secretaries of Agriculture and 
Interior to expedite access to Federal lands for the Good 
Samaritan Search and Recovery missions by eligible 
organizations and individuals. S. 1049 would provide that an 
eligible organization or individual may not be required to have 
liability insurance if the organization or the individual 
agrees to release the United States from all liability.
    Additionally S. 1049 would require the Secretary to approve 
or deny a request not more than 48 hours after the request is 
made. It requires the Secretary to develop search and recovery 
focus partnerships with search and recovery organizations and 
requires the Secretary to submit a report to Congress.
    The Department supports S. 1049 with technical amendments.
    The provision specified in S. 1049 and the objective of the 
act to allow expedited access to Federal lands for search and 
recovery missions are substantially consistent with current 
Forest Service policies and guidelines. There are some 
restrictions for wilderness and other closures such as fire or 
avalanche closures.
    In wilderness areas current policy will allow for access 
without a permit or approval if motorized equipment or 
mechanical transport was not utilized. If motorized equipment 
or mechanical transport was needed, current policy would allow 
for a rapid review of a request that an approval or a permit an 
immediate approval is prescribed for an emergency situation 
which involves a threat to life or property or a deceased 
individual.
    The Department feels that the provisions requiring the 
development and implementation of a process to expedite access 
would be unnecessary in search and rescue missions on National 
Forest cases.
    In most areas the County Sheriff has primary responsibility 
for search and rescue operations. The Forest Service currently 
has cooperative agreements with many individual County Sheriffs 
in our State Associations that clarify procedures to provide 
guidelines and guidance for rapidly obtaining any approvals or 
permits.
    We would also suggest that an amendment that all search and 
recovery groups work in coordination with the county search and 
rescue as the lead organization.
    USDA would like to work with the committee to make these 
technical changes to the bill.
    The second bill, S. 1554 directs the heads of the 4 Federal 
agencies, the National Park Service, the U.S. Fish and Wildlife 
Service, Forest Service and the Bureau of Land Management to 
each prepare and make available the report identifying parcels 
of 640 acres in size or more with restrictions public access 
and then requires agencies to characterize which of those 
parcels have significant potential for hunting, fishing or 
other recreational purposes.
    With those parcels the agency would be required to develop 
a plan on how access could be obtained through easement and fee 
title implementation acquisition within 180 days of the date of 
enactment.
    The act further requires that within 1 year the heads of 
the Federal management agencies prepare a listing of roads and 
trails providing access to boundaries of parcels of 640 acres 
or more in size on which the public is allowed to hunt, fish or 
use the land for other recreational purposes or to allow modes 
of access.
    Finally the act would amend the Land and Water Conservation 
Fund to require not less than 1.5 percent of such moneys are 
used to secure public access from willing sellers.
    USDA does not object to this provision.
    USDA supports the goal of continuing to improve public 
access on public lands for recreational uses including hunting 
and fishing which is available across the vast majority of the 
193 million acres comprised of the National Forest system.
    We further recognize the economic and community benefits 
associated with hunting, fishing and outdoor recreation within 
our budget allocations. We invest in improving and enhancing 
our opportunities. However, the Department does not support the 
reporting requirements required by S. 1554.
    Mr. Chairman, the Forest Service does not have the data 
requested by the bill. It would be costly, time consuming to 
collect and verify the information and that task could be 
completed within the timeframes required by the bill. The 
exercise would also draw considerable time, staff time, and 
limited resources away from critical projects.
    The accuracy of the report would be short lived due to the 
constant changing ownerships and subdivisions of properties and 
lands outside of the National Forest boundary and ownership. 
More importantly the data set would not provide the product 
that would essentially help resolve the specific issue here of 
restricted and limited access that is well known at the local 
level.
    However, we look forward to working with the committee to 
strengthen our ability to continue the public with ample 
opportunities to access National Forest system lands for 
hunting, fishing and other outdoor recreation activities and 
fully support the reauthorization of the Land and Water 
Conservation Fund.
    The third bill, S. 1888 would allow the Secretary of 
Agriculture in a proposed land exchange involving conveyances 
of National Forest located within the boundaries of the Inyo 
National Forest in California lying outside the boundaries. The 
company owning the Mammoth Mountain Lodge wishes to acquire 20 
acres of National Forest System lands in the main lodge 
currently managed as a part of a ski area special use permit so 
it can redevelop aging lodging facilities, increase capacity 
and develop employee housing.
    In addition S. 1888 would allow the Secretary of 
Agriculture to accept cash equalization in excess of 25 percent 
which would be deposited into an account of the Treasury of the 
United States established by the Sisk Act and would be made 
available for the Secretary for acquisition of lands for 
addition to the National Forest system.
    The Department supports S. 1888 if it will facilitate 
acquisition of highly desirable properties outside the National 
Forest boundaries. It would also simplify the process of 
changing and authorizing catch utilization in excess of 25 
percent.
    The fourth bill, H.R. 1684, Ranch A Consolidation and 
Management Improvement Act, would direct the Secretary of 
Agriculture to convey to the State of Wyoming approximately 10 
acres of parcel of National Forest System land on the Black 
Hills National Forest. It would allow the Ranch A Foundation to 
broaden types of uses of this land to include non-education 
events, including weddings and reunions.
    Public Law 104-276 conveyed the Babcock housing. Other 
improvements such as a well to the State of Wyoming, but the 
land where the house and improvements stands were conveyed to 
the Forest Service, conveyance of the property with some issues 
associated with the State owner improvements and the United 
States only the underlying lands.
    The Department supports the conveyance of this property to 
the State. However, we cannot support the conveyance of the 
National Forest system land without consideration.
    We recommend that the deal be amended to require 
consideration to be determined by an appraisal according to the 
uniform standards of Federal land acquisition.
    In addition the Department defers to the Department of 
Interior on Section Four amendments which would repeal use 
restrictions and reversionary clauses on properties that were 
conveyed to the State of Wyoming under the Public Law 104-276.
    The fifth bill, H.R. 338 would require the Secretary to 
exchange approximately 5 acres with the Los Padres National 
Forest located in Santa Barbara County, California to the White 
Lotus Foundation if the Foundation conveys an acceptable parcel 
of non-Federal land. The bill specifies an exchange be 
completed in 2 years. The Secretary would collect, complete and 
sell 5 acres parcel to the Foundation for fair market value.
    The Department appreciates the change made to the bill 
during the House consideration. That change would require the 
Foundation to be responsible for reasonable costs associated 
with the exchange or sale. However we do not support the 
reasonable associated change because it will be a limited 
benefit for the public.
    The conveyance would legitimize the Foundation's long 
standing encroachments on lands in the Los Padres National 
Forest. The Department believes that addressing this 
encroachment issues legislatively would set an unwelcome 
precedent for undercutting the Forest Service's ability to 
address other encroachments on National Forest Systems lands.
    If Congress determines that the Department should convey 
the lands to--that have been encroached upon, we recommend that 
H.R. 3008 be modified to eliminate the requirement to complete 
a land exchange and instead direct a sale. The public would be 
better served by a direct sale with the proceeds retained by 
the Forest Service to be used to supplement existing land 
acquisition funding or to acquire larger parcel or to hold it 
for a suitable time when a parcel is identified.
    Mr. Chairman, this concludes my statement. I'd be happy to 
answer any questions.
    [The prepared statement of Mr. Smith follows:]
 Prepared Statement of Acting Associate Deputy Chief Gregory C. Smith, 
 National Forest System, Forest Service, Department of Agriculture, on 
                                S. 1554
    Thank you for the opportunity to present the views of the United 
States Department of Agriculture (USDA) regarding S. 1554, the, ``Hunt 
Unrestricted on National Treasures Act''. I am Gregory C. Smith, Acting 
Associate Deputy Chief, National Forest System, USDA Forest Service.
    S. 1554 directs the heads of four Federal land management agencies 
(National Park Service, United States Fish and Wildlife Service, Forest 
Service and Bureau of Land Management) to each prepare and make 
available to the public a report identifying parcels of 640 acres or 
more in size with no, or restricted, public access. The Act would 
further require the agency heads to characterize which of those parcels 
have significant potential for hunting, fishing or other recreational 
purposes. For those parcels with significant hunting, fishing or 
recreational opportunities the agency would be required to develop a 
plan on how minimally disruptive access could be obtained through 
easement and fee title acquisitions. The Act would require these 
reports and plans to be available within 180 days after enactment and 
annually thereafter.
    The Act further requires that within one year the heads of the 
Federal land management agencies prepare a listing of the roads and 
trails that provide public access to the boundaries of parcels 640 
acres or more in size on which the public is allowed to hunt and fish 
or use the land for other recreational purposes and the allowable modes 
of access. The listing would be thereafter revised as the head of the 
Federal public land management agency determines appropriate.
    USDA strongly supports the goals of continuing to improve public 
access to all public lands for recreational uses, including hunting and 
fishing. We further recognize the economic and community benefits 
associated with hunting, fishing and outdoor recreation. However, the 
Department does not support the extensive and unnecessary reporting 
required by S. 1554. I defer to the witnesses from the Department of 
the Interior agencies to provide their perspectives on S. 1554.
    The Forest Service enthusiastically supports hunting and fishing 
and many additional recreational opportunities that are available to 
the public across the vast majority of 193 million acres that comprise 
the National Forest System (NFS). Within our budget allocation, we 
invest in improving facilities that enhance these opportunities 
including trails, roads and campgrounds.
    Mr. Chairman, the Forest Service does not have the data requested 
by the bill. It would be costly and time consuming to collect and 
verify the information and that task could not be completed within the 
timeframes required by the bill. The exercise would also draw 
considerable staff time and limited resources away from projects 
critical to the restoration of the health and vitality of NFS lands, 
including many projects that enhance hunting, fishing and recreational 
access. The accuracy of the report would be short-lived because of the 
constant changing of ownerships and subdivision of properties on lands 
outside Federal ownership. More importantly, this data set would not 
provide a product that will help to resolve the specific issue of 
restricted or limited access as problem access points are generally 
known at the field level.
    All national forests are generally open to the public for 
recreational uses, including hunting and fishing. In some instances, 
such as high fire danger, temporary closures may be implemented to 
address immediate resource or human health and safety concerns. 
Occasionally, longer term closures on Federal land are necessary such 
as damage due to flooding or wildfire.
    NFS land access issues are complex and multi-faceted and most 
cannot be resolved through simple easement or fee title acquisition. 
The issue is compounded by some private land owners adjacent to NFS 
lands not wanting to give the public access to their private lands. It 
is common in eastern states for access to isolated NFS land parcels to 
be granted to the Forest Service for administrative purposes but not 
for the general public. This is not always the case across the west.
    The Forest Service's travel management policy requires each 
national forest and grassland to identify and designate roads, trails 
and areas that are open to motor vehicle use and complete motor vehicle 
use maps (MVUMs). As of the end of FY 2013, approximately 82 percent of 
NFS administrative units had completed route and area designations for 
motor vehicle use. The agency will continue to involve the public and 
local governments in local decisions and work collaboratively to ensure 
all public input is considered in the travel management planning 
process.
    Finally, the Act would amend the Land and Water Conservation Act of 
1965 (LWCF) to require not less than 1.5 percent of such monies are 
used to secure public access from willing sellers. USDA supports the 
goals of providing acquisition of easements, rights-of-way, and fee 
title acquisitions for the purpose of enhancing access to public lands. 
However, we feel the permanent set-aside may be premature and access 
issues can be addressed administratively through the annual LWCF 
prioritization process. The President's 2015 Budget also proposes $900 
million in combined discretionary ($350 million) and mandatory ($550 
million) funds for FY 2015, and permanent authorization of $900 million 
in annual mandatory funding beginning in 2016.
    Forest Service LWCF projects either directly provide recreational 
access or create new NFS land which is often open for hunting, fishing, 
and other outdoor pursuits. The President's Fiscal Year 2015 Budget 
request for the agency proposed using $4 million from the Land and 
Water Conservation Fund ($2 million in discretionary funds and $2 
million in mandatory funding) to acquire strategically-located parcels 
that secure or improve access, both motorized and non-motorized, to NFS 
lands where access is currently unavailable or inadequate. Those funds 
will also be used to acquire parcels which provide direct use of 
important recreation resources, such as hunting and fishing 
opportunities, climbing routes and motorized uses. The agency's goal 
with recreational access is to invest LWCF funds to better meet 
recreation and other management needs. While we do not support the 
extensive data collection and reporting requirements of S. 1554, we 
look forward to working with the committee to strengthen our ability to 
continue to provide the public with ample opportunities and access to 
NFS lands for hunting, fishing and other outdoor recreation and to 
fully support reauthorization and full funding of the Land and Water 
Conservation Fund.
    Mr. Chairman, this concludes my testimony. I am prepared to answer 
any questions from members of the Committee.
                    s. 1049 and h.r. 2166 (s. 1049)
    Mr. Chairman and members of the Sub-Committee, thank you for the 
opportunity to testify before you today on S. 1049, a bill that directs 
the Secretaries of the Interior and Agriculture to expedite access to 
Federal lands for Good Samaritan search-and-recovery missions.
    S. 1049 would direct the Secretary of Agriculture to develop and 
implement a process to expedite access to National Forest System (NFS) 
lands for Good Samaritan search-and-recovery missions for eligible 
organizations and individuals. S. 1049 would provide that an eligible 
organization or individual may not be required to have liability 
insurance if the organization or individual agrees to release the 
United States from all liability. The bill also would require that the 
process include provisions clarifying that an eligible organization or 
individual would not be considered to be a Federal volunteer when 
carrying out a Good Samaritan search-and-rescue mission, and that the 
Federal Torts Claims Act and the Federal Employee Compensation Act 
would not apply to a Good Samaritan search-and-rescue mission.
    Additionally, S. 1049 would require the Secretary to provide 
notification of the approval or denial of a request to carry out a 
mission not more than 48 hours after the request is made, and, if the 
request is denied, to provide the reason for the denial and any actions 
the organization or individual can take to meet the requirements for 
approval. S. 1049 also requires the Secretary to develop search and 
recovery focused partnerships with search and recovery organizations to 
help coordinate, expedite, and accelerate mission efforts and requires 
the Secretary to submit a report to Congress no later than 180 days 
after the date of enactment. The plans would describe efforts to 
develop the partnerships and actions being taken to expedite and 
accelerate Good Samaritan search-and-recovery mission efforts for 
missing individuals on Federal lands.
    The Department supports S. 1049 with technical amendments. The 
provisions specified in S. 1049 and the objective of the Act, to allow 
expedited access to Federal lands for search and recovery missions, are 
substantially consistent with current Forest Service policies and 
guidelines governing these types of activities and access. Notable 
exceptions would include some restrictions to areas designated as 
Wilderness and access to special area closures such as fire or 
avalanche closures. In Wilderness areas, current policy would allow for 
access without a permit or approval if motorized equipment or 
mechanical transport was not utilized. If motorized equipment or 
mechanical transport was needed, current policy and decision matrixes 
would allow for a rapid review of a request for approval or permit; an 
immediate approval is prescribed for an emergency situation involving 
imminent threat to life and property, or a deceased individual. In 
special area closures, current policy would also allow for a rapid 
review of a request for access.
    The Department feels that the provisions requiring the development 
and implementation of a process to expedite access would be unnecessary 
in most search and recovery cases on NFS lands.
    In most areas, the County Sheriff has the primary responsibility 
for search and rescue operations on National Forest System lands. The 
Forest Service currently has cooperative agreements with many 
individual County Sheriffs and or statewide associations that clarify 
procedures and provide guidance on rapidly obtaining any approvals or 
permits. It is also common practice among the eligible organizations or 
individuals to work closely with County search and rescue 
organizations. Any approvals or permits necessary for the eligible 
organizations or individuals to conduct a search and recovery mission 
would be expedited by using our current cooperative agreements or 
processes. We would also suggest that any search and recovery missions 
conducted by eligible organizations or individuals are carried out in 
partnership and in coordination with the County search and rescue as 
the lead organization.
    USDA would like to work with the Committee on technical amendments 
to this bill.
    Mr. Chairman, regardless of the ultimate outcome of the 
congressional consideration of S. 1049, the Forest Service is committed 
to working with all organizations and the dedicated men and women who 
volunteer their time and expertise to assist in the search and recovery 
of those missing.
                         s. 1888 and h.r. 1241
     Mr. Chairman and members of the Subcommittee, thank you for the 
opportunity to appear before you today to provide the U.S. Department 
of Agriculture's (USDA) views regarding S. 1888.
    S. 1888 would allow the Secretary of Agriculture, in a proposed 
land exchange involving the conveyance of certain National Forest 
System land located within the boundaries of the Inyo National Forest, 
to accept for acquisition certain non-Federal lands in California lying 
outside the boundaries of the Inyo National Forest, if the Secretary 
determines that the acquisition of the non-Federal lands is desirable 
for National Forest System purposes. In addition, S. 1888 would allow 
the Secretary of Agriculture to accept a cash equalization payment in 
excess of 25 percent, which would be deposited into the account in the 
Treasury of the United States, established by the Sisk Act, and would 
be made available to the Secretary for acquisition of land for addition 
to the National Forest System.
    The Department supports S. 1888 as it will facilitate acquisition 
of highly-desirable parcels currently located outside the National 
Forest boundary. It will also simplify the land exchange process by 
authorizing a cash equalization payment in excess of 25 percent. All 
requirements otherwise applicable to the land exchange would continue 
to apply.
    Mammoth Mountain Lodge Redevelopment LLC, commonly known as Mammoth 
Mountain Ski Area (MMSA), wishes to acquire 20 acres of National Forest 
System land in the Main Lodge area, currently managed as part of a Ski 
Area Term Special Use Permit, so it can redevelop aging lodging 
facilities, increase capacity, and develop employee housing and whole 
and fractional ownership condominiums. These latter plans are 
inconsistent with its Ski Area Term Special Use Permit.
    MMSA has selected 12 non-Federal parcels suitable for acquisition 
in the Inyo, Stanislaus, Plumas, and Eldorado National Forests for the 
proposed exchange. These parcels were selected based on priorities 
identified in the respective Forest's Land Acquisition Plans, and 
include two Los Angeles Department of Water and Power (LADWP) parcels 
that are leased by the Forest Service as administrative sites. The 
southern parcel houses the Interagency Visitor Center near Lone Pine, 
California. The northern parcel is adjacent to the White Mountain 
Ranger Station in Bishop California, and serves as a storage area for 
construction materials, recreation supplies and larger maintenance 
trucks. Legislation is needed to acquire the LADWP parcels because they 
are located outside the declared boundary of the Inyo National Forest.
    In addition, because the values of the agreed upon Federal and non-
Federal lands are not likely to be within the 25 percent range limit as 
provided in the Federal Land Policy and Management Act (FLPMA), 
legislation is needed to authorize the Forest Service to accept cash 
equalization in excess of the limit. The Department recommends the 
legislation be modified to clarify that funds deposited in the Sisk Act 
account shall be made available to the Secretary without further 
appropriation to acquire land in the State of California as additions 
to the National Forest System.
                               h.r. 1684
    Thank you for the opportunity to present the views of the U.S. 
department of Agriculture (USDA) regarding H.R. 1684, the ``Ranch A 
Consolidation and Management Improvement Act''.
    The bill would direct the Secretary of Agriculture to convey to the 
State of Wyoming an approximately 10-acre parcel of National Forest 
System land located on the Black Hills National Forest. The bill also 
would remove a reversionary interest on land previously conveyed to the 
State under Public Law 104-276.
    Public Law 104-276 directed the Secretary of the Interior to convey 
approximately 600 acres of the Ranch A property, containing a fish and 
wildlife facility, to the State of Wyoming for the limited purposes of 
``fish and wildlife management and educational activities.'' Public Law 
104-276 also provided that the property would revert to the United 
States if it was used for other purposes.
    H.R. 1684 would remove this reversionary interest to accommodate 
the desire of the State and the Ranch A Foundation to broaden the 
purposes of the State's use of this land to include non-educational 
events, including weddings and reunions. The Ranch A Foundation was 
created to protect the Ranch A property while maintaining the ranch as 
an educational facility. The increased revenue generated from these 
additional purposes would result in better custodial care and 
restoration of Ranch A.
    Under Public Law 104-276, the United States retained 80 acres of 
the Ranch A property, and the administrative jurisdiction over that 
land was transferred to the Secretary of Agriculture. H.R. 1684 would 
require the Secretary to convey approximately10 of the 80 acres to the 
State without consideration. If the Secretary deems it necessary, the 
exact acreage and legal description of the parcel of land to be 
conveyed would be determined by a survey that is approved by the 
Secretary and paid for by the State.
    Public Law 104-276 conveyed the Babcock House and other 
improvements such as a well to the State of Wyoming. But, the land 
where the house and improvements stand on were conveyed to the Forest 
Service. Public Law 104-276 also granted a right-of-way to the State of 
Wyoming for access to use the Babcock House and the other improvements 
on the land conveyed to the Forest Service.
    The right-of-way has presented a number of management challenges to 
the Forest Service, the Ranch A Trust and the State of Wyoming. 
Conveyance of the property would solve issues associated with the State 
owning the improvements and the Forest Service owning the property the 
improvements reside upon.
    The Department supports the conveyance of this parcel to the State; 
however, we cannot support conveyance of National Forest System lands 
without consideration. We recommend that the Bill be amended to require 
consideration to be determined by an appraisal completed according to 
the Uniform Appraisal Standards for Federal Land acquisitions.
    In addition, the Department of Agriculture defers to the Department 
of the Interior on Section 4. Amendments, which would repeal the use 
restrictions and the reversionary clause on properties that were 
conveyed to the State of Wyoming by Public Law 104-276.
    Mr. Chairman, this concludes my testimony. I look forward to 
working with the Committee on this bill. I am prepared to answer any 
questions from members of the Committee.
                               h.r. 3008
    Mr. Chairman and Members of the Subcommittee, I appreciate the 
opportunity to appear before you today to provide the views of the U.S. 
Department of Agriculture (USDA) regarding H.R. 3008.
    This legislation would require the Secretary to exchange 
approximately five acres of land within the Los Padres National Forest 
located in Santa Barbara County, California to the White Lotus 
Foundation if the Foundation offers to convey an acceptable parcel of 
non-Federal parcel. The bill specifies that if a land exchange is not 
completed in two years, the Secretary would be compelled to sell the 
five acre parcel to the Foundation for fair market value.
    The Department appreciates the change made to the bill during House 
consideration. That change would require the Foundation to be 
responsible for the reasonable costs associated with the exchange or 
sale; however, we do not support H.R. 3008 because there would be 
limited benefit to the public from this conveyance. This legislation 
would serve only the White Lotus Foundation. In addition, the 
conveyance would legitimize the Foundation's long-standing 
encroachments on lands in the Los Padres National Forest, which 
continue today, by allowing the Foundation to acquire these public 
lands through legislation for the Foundation's private use and 
enjoyment.
    The Department believes that addressing this encroachment issue 
legislatively would set an unwelcome precedent and undercut the Forest 
Service's ability to address other encroachments of National Forest 
System lands. Specifically, there are other landowners in the area with 
encroachments on federal lands in the Los Padres National Forest who 
are following H.R. 3008 with interest and who may seek to use the bill 
as a model for resolving their encroachment cases.
    If Congress determines that the Department should be directed to 
convey the lands that have been encroached upon, we recommend that H.R. 
3008 be modified to eliminate the initial requirement to complete a 
land exchange and instead direct a sale. The public would be better 
served by a direct sale, with the proceeds retained by the Forest 
Service to be used to supplement existing land acquisition funding to 
acquire a larger parcel or be held until a suitable parcel is 
identified.
    The language contained in section 2(e)(2) prescribing that the 
Secretary may make a finding that the public is well served by an 
exchange or sale only creates ambiguity over the non-discretionary 
nature of this bill. As we have discussed in this testimony, the 
Department does not believe the public is well served by conveying this 
land. A finding that an exchange would be in the public interest is 
highly unlikely; it would be dependent on the Secretary determining 
that the natural resource values to be acquired in the exchange were so 
extraordinary that they outweigh the merits of conveying NFS lands to 
the Foundation.
    Mr. Chairman and Members of the Subcommittee, this concludes my 
prepared statement.

    Senator Manchin. Thank you very much, Mr. Smith.
    At this time I'll turn to our Senator from Nevada, Senator 
Heller for his opening statement.

          STATEMENT OF HON. DEAN HELLER, U.S. SENATOR 
                          FROM NEVADA

    Senator Heller. Mr. Chairman, thank you and also the 
ranking member for holding this hearing today. I think these--
there's a couple of bills here and if there is no objection I'd 
like to say a few words for just a couple of minutes.
    The first of the 2 bills that I've introduced is the Good 
Samaritan Search and Recovery Act which would solve a long 
standing public safety issue in our national parks, forests and 
public lands. My friend and colleague in the House, Congressman 
Joe Heck and I, introduced this legislation in response to the 
tragic stories of Mr. Keith Goldberg and Air Force Staff 
Sergeant Antonio Tucker. Both of these individuals were missing 
for over a year before volunteer, Good Samaritan rescue teams 
received government authorization to begin searching.
    This bipartisan, common sense legislation would allow for 
expedited access to public lands for Good Samaritan search and 
recovery organizations so that they may conduct searches for 
missing persons.
    I'd personally like to thank Keith Goldberg's sister, Jody 
and her husband, Paul Thompson, for being here today. Also, 
Keith's brother, Jeff Goldberg, has also joined us and thank 
them for their support and tireless work and advocacy on behalf 
of this piece of legislation. This family's courage and 
resilience is truly inspiring. I'm grateful for the sacrifices 
they've made to advance this piece of legislation.
    Their brother, Keith, disappeared on January 31, 2012. He 
was believed to be a victim of murder, but the police, 
operating on thin resources, were unable to continue the search 
for his body in the Las Vegas desert. His family went without 
closure for far too long.
    But when new evidence pointed toward the Lake Mead 
Recreation area, Mr. Goldberg's sister, Jodi, reached out to a 
private search and rescue team to look for her brother. All 
that prevented the rescue team from--all that prevented the 
rescue team from discovering Mr. Goldberg's body was the 
bureaucratic red tape of the National Park Service which 
refused to allow them to search the area without a permit and a 
$1 million insurance policy.
    After the family spent 6 months finding an insurer and 
raising the money to buy the policy the search team found Keith 
Goldberg's body in 2 hours.
    Staff Sergeant Antonio Tucker's family suffered a similar 
frustrating ordeal. Staff Sergeant Tucker was stationed at 
Creech Air Force Base when he went missing June 23, 2012. He 
was believed drown.
    A Good Samaritan team offered to look for Staff Sergeant 
Tucker but was blocked by the Park Service which required 
insurance and a special search permit. These hurdles were 
finally overcome about a year later. The team, possessing 
superior equipment to government divers, found the body within 
2 days.
    No family should have to go through what the Goldberg and 
Tucker families have had to endure by waiting a year to recover 
a loved one. Our legislation will prevent such needless red 
tape from interfering in a search and recovery of lost persons. 
It will provide qualified and trained search and rescue groups 
with expedited access to Park Service land, if they sign a 
liability waiver.
    It requires the Secretary of the Interior and the Secretary 
of Agriculture to implement a process to expedite access to 
Federal lands for Good Samaritan search and recovery 
operations. It will give the Secretary the authority to develop 
long term partnerships with search and recovery organizations 
to help facilitate and expedite Good Samaritan missions for 
missing persons.
    The Good Samaritan Search and Recovery Act has the ability 
to conserve government resources, to provide families closure 
and even to save lives.
    The House version of this bill passed the House of 
Representatives unanimously last year.
    I would also like to thank Senators Warner, Tester, Hatch 
and Chambliss for co-sponsoring my bill. I'm confident it can 
garner similar overwhelming support in the Senate if given the 
opportunity.
    Second bill, Mr. Chairman, before this committee is the 
Pinon-Juniper Related Projects Implementation Act and also is a 
bipartisan bill requested by the local government officials 
from Lincoln County, Nevada.
    The bill will amend existing law to provide local officials 
more flexibility to carry out conservation and land use goals 
such as infrastructure development, wildlife conservation and 
wildlife prevention because nearly 85 percent of the land in 
Nevada is administered by the Federal Government. It presents 
our local and State governments with many unique challenges. In 
order to accommodate the needs of Lincoln County, Congress 
passed the Lincoln County Land Act in 2000 and the Lincoln 
County Conservation Recreation Development Act in 2004. It has 
become apparent that the current authorities of those existing 
laws do not serve to effectively facilitate the successful 
implementation of these important environmental protections and 
land use initiatives.
    To address these limitations I introduced this bill to make 
minor improvements to those laws by improving the Bureau of 
Land Management's administration of watersheds and wildlife 
habitat and to enhance economic development in Lincoln County. 
Nevada Congressman, Mark Amodei and Steve Horsford introduced 
nearly identical, bipartisan legislation in the House as well.
    Given that this bill will spur economic growth, create much 
needed jobs in a county faced with an unemployment rate of 
greater than 10 percent, I look forward to working with the 
members of this committee to move this important legislation.
    Once again, I'd like to express my appreciation to this 
committee for holding this hearing and if I may quickly 
conclude, I'd like to submit for the record a letter of support 
by Chairman Ed Higby on behalf of Lincoln County Board of 
Commissioners.
    Senator Manchin. Thank you, Senator.
    I'll start the questioning just to get things started and 
then we'll switch back to Senator Barrasso and Senator Heinrich 
and then Senator Heller, if he's still hopefully, with us.
    Let me just say this, I think that you've heard the 
concerns of the Senate, the Senators here. They're basically 
reaching out from their constituent base. I think in a nutshell 
what happens with the people, not just in just West Virginia, I 
mean, in our State we don't deal that much with the BLM, but 
the Western States do more so that we do.
    With that though, we have a lot of people that try to 
access and want access and want to enhance the access and want 
to be able to work with the government and work with the 
agencies in a partnership. I think the frustration you might 
hear from all of us is that sometimes we don't see that willing 
partnership coming from the agencies. They're pretty rigid and 
set.
    So, I think, in general what I would ask both of you all, 
how much flexibility do you have to address the concerns you've 
heard from the Senators that have been here, to submit bills, 
that are asking for your consideration on these? I think by us 
introducing a bill it shows the desperation that we have to try 
to get some answers and try to answer our constituent's needs. 
A lot of this can be done administratively, you know, you can 
just change the whole attitude and atmosphere, if you will.
    The things they've asked for to search and quick ability, 
you know, for someone wants to do that they just sign a waiver. 
It's pretty simple. You're able to do what needs to be done or 
in the case of the HUNT, you know, we've always tried to 
enhance the habitat, but also make it accessible. These are 
just common sense procedures that we're asking for.
    I think what I'm asking, in general, to both of you, does 
it take legislation? Do we have to move on legislation in order 
to get the agencies or do we have you so tied down because of 
the way the code is written and your duties are written that 
you need the relief from us, you need us to do this?
    So with Mr. Roberson, if you can, in a nutshell, you've 
looked at all these bills. You've showed your concern that you 
might have and some adjustments. Do you think you have the 
flexibility to do a lot of that without the bills that we're 
introducing?
    Mr. Roberson. Thank you, Mr. Chairman.
    It's a difficult question.
    Senator Manchin. I'm sure.
    Mr. Roberson. I think we all seek common sense solutions.
    Senator Manchin. Sure.
    Mr. Roberson. To the common problems. Many of the 
provisions of the bills are things that we can do, 
administratively, that we do administratively.
    One issue that we have is with resources. I mean, we have 
to set priorities because there are multiple priorities 
established through appropriations and authorizations. So we, 
that said, you're focusing on certain aspects of the need of 
your constituencies does help us focus, reset, our priorities. 
Or assure that we are on the same page with regard to 
priorities.
    Senator Manchin. I'm saying----
    Mr. Roberson. Many of the bills we support, I think, I said 
we support all the bills. What we've done to meet some of them 
is to work in partnership with others.
    Senator Manchin. We made the concerns known.
    Mr. Roberson. Right.
    Senator Manchin. I think Senator Heinrich's been very clear 
in where he's coming from, what he's trying to do and it really 
affects all of us because I think all of us have constituents 
that want access and want to be able to have access to the 
lands their taxes are paying for and maintaining.
    I think that Senator Barrasso and his approach to where 
he's having some concerns. Senator Heller you just heard from.
    How much of this can you accomplish without legislation. 
We've already introduced changes. Can you move or do you have 
to wait until we pass legislation to give you the ability to do 
it or do you need that type of point of direction of what needs 
to be done?
    Mr. Smith, maybe you can speak to that.
    Mr. Smith. Thank you, Mr. Chairman.
    I think we have a lot of flexibility to do things 
administratively, particularly on Senator Heinrich's bill. Most 
of our land management plans specifically focus on access. We 
work with conservation groups all over, you know, to try to 
make access available. We have special provisions in the Land 
and Water Conservation Act where a lot of that is targeted for 
recreational access and other kinds of access, hunting and 
fishing.
    So we think we have great flexibility in terms of doing 
some of it administratively. There are certain things 
statutorily that we might, probably, can't do, but I think we 
do have a great deal of flexibility. That's something, a goal, 
an objective, of the Forest Service for sure, is trying to 
provide more recreational access for hunting and fishing.
    Senator Manchin. Let me just throw this at you and I'll 
finish up quickly and turn it over.
    If this committee, this is a subcommittee that reports to 
the full Energy Committee. If this s ubcommittee reported in 
favor of a bill and do everything that's just been introduced 
today that we would have the sense of the Energy Committee sent 
to your respected agencies of what we wanted to have accomplish 
without passing a piece of legislation, could you react to 
that?
    Does that give you a direction of what we're asking for 
before we'd have to go down the path of changing the law? 
Because things are a little bit challenging here right now with 
pieces of legislation where they get tagged on to, even do they 
even get voted on, do they even get passed. We can get there. 
It might take a while.
    But if the agencies are willing to work with us and we're 
willing to give you a sense of where we're coming from such as 
the HUNT Act and we give you a letter directing your agency the 
sense of the Energy Senate Energy Committee requesting you all 
to take the actions that you can that we think is flexible 
within your agency.
    Would that be enough to move you all in showing what our 
sense or do--then we can come back, if not, and we can say, you 
know, we've asked you to cooperate. For some reason you have 
some bureaucrats that are prohibiting that from happening. So 
we're going to have to pass this legislation now. We're going 
to have to go for the jugular, OK?
    We don't want to do that.
    I think what we've done is brought it to a level that the 
quicker we can get this done, the better. So does that give you 
any pathway? Could you accept it? Does that give you clarity?
    Mr. Smith. I think, certainly, the USDA Forest Service 
would certainly be willing to work with you guys on that. I 
think we'd be committed to do that.
    Senator Manchin. So basically a letter about the sense of 
the Senate Energy Committee would help, you think, in moving 
and giving you the direction you need with the flexibility you 
already have?
    Because we can look at that too and work with your counsel, 
if you will to see if that's something that would really help 
and see if we can promote good government a little quicker than 
what it's giving you right now
    Mr. Smith. Yes, I don't think we would object to that.
    Senator Manchin. OK.
    Youself?
    Mr. Roberson. I think we would urge that. We always do 
better when we actually sit down.
    Senator Manchin. Yes.
    Mr. Roberson. Talk about the common problem and how we can 
solve it. A letter from----
    Senator Manchin. If we come to an impasse.
    Mr. Roberson. Go ahead, Senator.
    Senator Manchin. I don't think we've come to an impasse on 
this. We know we have some--you have some adjustments you want 
to make and all that. You probably can do it anyway.
    Even if we pass legislation on the rules and regulations 
you're going to have interpretations anyway.
    So why not work from the get go? I mean, we can get a lot 
of this stuff accomplished, I think, that the Senators are 
asking you. I think we can get a sense of the entire Energy 
committee here if that's what we all support and go for it.
    Mr. Roberson. Yes, sir.
    Senator Manchin. With that being said, I'm going to turn it 
over to our ranking member here, Senator Barrasso.
    Senator Barrasso. Thank you, Mr. Chairman.
    I agree exactly with what you said. Your comments are right 
on the mark. I think a bipartisan agreement on the committee 
that what you're talking about just makes sense. That's, you 
know, if you played your comments in Wyoming or West Virginia 
or wherever they're going to be accepted as you think that's 
the way effective, efficient government ought to work.
    So I appreciate your comments and hope you've taken those 
to heart.
    Mr. Smith, I wanted to ask you about the Ranch A 
Foundation.
    For many years, as you know, the State and the Foundation 
have managed the property for the limited purpose of managing 
fish and wildlife in educational activities. The limited 
purposes were outlined in the original public purposes 
conveyance. The State and the Foundation want to continue these 
purposes and properly maintain and manage this historic 
property.
    Maintenance and management require revenue and the 
expressed purpose in the original act is not raising the kind 
of revenue needed. So I'm glad to see in your testimony the 
Forest Service recognizes that increased revenue generated from 
additional purposes would result in better custodial care and 
restoration of the ranch.
    Your testimony also states that the right of way has 
presented a number of management challenges to the Forest 
Service, the Ranch A Foundation and the State of Wyoming. That 
the conveyance of the property would solve issues that are 
associated with the State owning the improvements on the land 
and then the Forest Service itself, owning the property that 
the improvements reside upon.
    You do, however, mention that you support the conveyance--
I'm sorry, do not support the conveyance without a 
consideration. I think that to come up with the value of the 
parcel to be conveyed about $25,000 or less than $25,000.
    I was wondering if that $25,000 figure takes into account 
that under Federal law the State has an easement for the use of 
the land. If the Forest Service acknowledges the Ranch A 
Foundation and the State have already invested over a million 
dollars in the overall property.
    I'm just kind of wondering how that figures in because I 
know the Forest Service does spend money managing the property 
in the current ownership agreement and if there were things we 
could do differently.
    Mr. Smith. Yes, I don't have any specific figures for that. 
But certainly the general policy of the Forest Service is 
generally we just, without legislation, we can't convey without 
consideration. So that's just the general principle that we 
have.
    We can certainly look at the economics there. But we do 
think there are some costs associated with that. We're 
certainly willing to look into that and see can we make that--
can we work out something with the committee on that.
    Senator Barrasso. That would be terrific because it does--I 
think it would be safe to say that if the agency no longer has 
the management challenges that were involved with it that would 
actually save the Forest Service time and resources if you 
didn't have to deal with it.
    I wanted to ask you about the HUNT Act as well. In your 
testimony you made clear your support of the goals of the HUNT 
Act, but not as you call them, the extensive and unnecessary 
reporting requirements required by the bill.
    Is it the position of the Forest Service that you can meet 
the goals of increasing access to public land without 
collecting the data and meeting the reporting requirements in 
the bill and if so, how?
    Mr. Smith. I think, as I said earlier, we have it in our 
land management plans to provide extensive access. We have 
special provisions in the Land and Water Conservation Act when 
we do our acquisition funding that we specifically focus on 
priority to recreation access for that. So we just think that 
we can do that administratively.
    But particularly concerned was the timelines in the bill, 
the 180 days and that. We don't think that we could make that 
based on capacity and staff that would be pretty hard to turn 
around and gather that information. Some of that is not in our 
current data base. So you're talking about creating another 
data base to try to funnel that information out.
    Senator Barrasso. Mr. Roberson, the bill would also 
dedicate, I think, 1.5 percent of the Land and Water 
Conservation Fund moneys to be used for securing public access. 
The Interior Department claims that it can address these access 
issues through the current Land and Water Conservation Fund 
prioritization process. This raises an interesting question.
    What level of priority does the type of small right of way 
or access acquisitions, what kind of prioritization does that 
get in this sort of bill?
    Mr. Roberson. Access is a major priority for us. I can tell 
you that in the 2015 Land and Water Conservation projects that 
we are considering for funding in 2015 every single one of the 
projects that we are proposing to move forward with has an 
access component or is primarily for access.
    So we--access is one of the main criteria that we use as 
we're considering LWCF projects.
    Senator Barrasso. I guess then my final question I would 
ask both of you for your--if your agencies would provide this 
subcommittee with perhaps a breakdown of LWCF funds going to 
these kinds of right of ways or acquisitions by land management 
agencies and the project name with a dollar amount for say, the 
last 5 years just so we can get a handle on that thing.
    Mr. Smith. Certainly we will.
    Senator Barrasso. Thank you, Mr. Chairman.
    Senator Heinrich [presiding]. I think I'm going to let 
Senator Heller go next and then I'll wrap up with some 
questions for Mr. Smith.
    I wanted to just take a moment and express my willingness 
to work with the Senator from Nevada on his search and rescue 
legislation.
    Senator Heller. With that I thank the chairman and those on 
this subcommittee for their support of this search and rescue 
bill also.
    Mr. Roberson, I have more broader questions on this search 
and rescue question related to recent events in my State. We 
had a fire earlier this month that burned in the Desatoya 
Mountain Wilderness Study Area, east of Fallon in Churchill 
County.
    Fires in wilderness areas, obviously, are not uncommon and 
they can be quite heavy at times especially this time, during a 
drought. Could you, for me, clarify the department's authority 
to allow local law enforcement agencies to conduct search and 
rescue missions within wilderness areas and wilderness study 
areas?
    Mr. Roberson. Let me ask, Deputy Chief, Dean Ross, from the 
Park Service to come forward. Let's see if he can help me with 
this.
    Senator Heller. Thank you.
    Mr. Roberson. He's in charge of emergency service for the 
Park Service.
    Senator Heller. The reason I raise----
    Mr. Roberson. It's outside my area of expertise.
    Senator Heller. OK.
    The reason I raise the question is there does seem to be 
some confusions. So if you could clarify?
    Mr. Ross. Certainly, thank you, Senator, for the question.
    In the--now on National Park Service lands and in 
wilderness areas we often have to conduct search and rescue 
operations internally. There are some limitations to the 
mechanized capabilities that we can put forth into that 
particular operation. There are some administrative releases to 
those requirements related to the use of equipment or 
mechanized components in the wilderness areas.
    But those are the--basically were the requirements that--
our constraints.
    Senator Heller. do you endorse the Good Samaritan Search 
and Rescue and Recovery Act?
    Mr. Ross. Yes, sir.
    We actually, administratively, we have that capacity 
currently within the National Park Service to, under the 
Superintendent's authority to waive the liability requirement. 
The National Park Service conducts approximately 5,000 search 
and rescues a year. We have partners all across America in all 
50 States that we work with on a routine basis to conduct 
search and rescue with local government, private organizations 
and State government as well.
    Senator Heller. Thank you for your comments.
    Now back to you, Mr. Roberson.
    In your testimony you state that the Elias District 
Resource Management plan identifies over 700,000 acres of land 
within its jurisdiction that requires restoration work that 
would reduce fire risks, perhaps improve sage grouse habitat 
and other priorities that your agency has.
    What's the pace, current pace, of your agency in treating 
these lands?
    Mr. Roberson. Senator, we're--we are working with every 
resource that we have, whether it's fuel money through the fire 
program or emergency stabilization money through the fire 
program, we have a healthy lands initiative where we focus 
dollars on areas where we can work, not only to address fuel 
situations, but then also as an PGA component of your bill, 
also try to improve habitat for sage grouse.
    So we are--we always can use more resources. We are in the 
process of completing land use plans, as I'm sure you are 
aware, in Nevada for sage grouse habitat, management and 
improvement. We will be working as we are able to implement 
those plans we will be moving forward with several projects to 
address both the fire component, fuels component and the 
restoration component.
    Senator Heller. Are you limited by the availability of 
resources?
    Mr. Roberson. We do have to set priorities, sir. Yes, sir.
    There are, I think, we have, each year we move through a 
set of priority projects and get, you know, we are focusing 
using resilience and resistance models for landscapes in the 
sage grouse habitat to identify areas where we can get in and 
do the best job of preventing fire and of restoring habitat.
    Senator Heller. I hear frequently from those on the ground 
that the agency struggles with resources to implement some of 
these projects. Yet you mentioned that the Lincoln County Lands 
Act has over $31,000,000 available in it.
    Why do you have a resource issue?
    Mr. Roberson. The Lincoln County Lands Act and the Lincoln 
County Conservation Recreation Development Act have limitations 
on where the funds can be spent. We have developed a 10-year 
plan in 2012 that addresses all of the opportunities to improve 
both conservation, restoration development, recreation in the 
counties and in Lincoln County. We are following that plan.
    Senator Heller. OK.
    If I can, just for a minute, Mr. Chairman, I want to 
express frustration that I have with the testimony.
    You state that and I quote that the BLM, ``Encourages 
Congress to consider whether the Lincoln County accounts are 
the appropriate mechanism to support these projects.'' Yet the 
agency frequently complains about a lack of resources.
    Yet, when the local government takes matters in their own 
hands and develops new authorities to do the work, like our 
county bills, the BLM expresses concerns about them.
    If the agency would do their job managing our lands we 
wouldn't have to pursue these types of proposals. Rather than 
make an excuses and broad statements about precedent and 
process I think we feel, that we all feel, that the agency 
should just work with communities to implement these badly 
needed projects. I think that would better serve the land and 
frankly, better serve our constituents.
    With that, Mr. Chairman, I yield back.
    Senator Heinrich. Thank you, Senator Heller.
    I want to take a couple of minutes and return to the HUNT 
Act. First let me start, I've got a couple of questions for Mr. 
Smith. But I want to start by saying I'm more than happy to 
work with the Forest Service on the issues of timelines and 
reporting requirements.
    But I think we haven't completely got at the underlying 
issues that are driving this. While there's an enormous amount 
of administrative latitude on these issues, I think, if they 
were adequately prioritized you wouldn't see the kind of 
incredibly broad support, you know, when you look at that 
letter from the American Wildlife Conservation Partnership. I 
mean, you have organizations there that run across the entire 
West, the Mule Deer Foundation, Dallas Safari Club, every game 
association you can imagine because I can tell you when I'm 
talking to sportsmen in my home State this is the issue that 
comes up time and time again.
    They've seen access routes that used to be able to 
utilized, closed off over time. I've experienced this myself. 
I've drawn--I've driven up in the middle of deer season to a 
road, a maintained road, graded road. We're not talking about 
something that a travel management plan or closed or that 
someone--it was a user created road, literally something that 
used to be county maintained that all of a sudden had a locked 
gate across it. Without tracking that information it becomes 
very hard to know exactly what we have access to that's in the 
public domain and what we don't.
    Mr. Smith, I wanted to ask you how many acres of National 
Forest System lands are currently legally inaccessible? By 
legally inaccessible I mean no ability to either walk, hike or 
drive to? You shouldn't have to use a helicopter to access 
public lands.
    Mr. Smith. That I'll have to get back to you, Mr. Chairman. 
I'm not sure. I know a great deal of it is open, but you're 
right a lot of it is inaccessible. But we'll certainly get back 
to you on that.
    Senator Heinrich. I appreciate that.
    This is one of the challenges we've had is we have not been 
able to get a real handle on the magnitude of that problem 
through the agency. I think we need to track the data better in 
order to know where to place priority and where to put effort.
    Do you know if that number or the amount of land, 
basically, that is inaccessible has increased or decreased over 
the last decade?
    Mr. Smith. We certainly will follow up on that also.
    Senator Heinrich. OK.
    Senator Heinrich. I know there have been a lot of LWCF 
projects that have been focused on access. But I think this 
gets to the heart of the issue because I think not only do you 
have that information, I think it's very hard to get that 
information accurately.
    I think one of the things we need to be doing is working 
with individual National Forests and the Bureau of Land 
Management in these various districts to make sure that while 
we're doing some good things on the access front, that we're 
not just winning the battle and losing the war because things 
are changing on the ground. That's what I hear all too often 
from sportsmen in New Mexico.
    Do you know how does the Forest Service typically learn 
when access routes, that have been used historically, have been 
closed to the public?
    Mr. Smith. That's generally through our travel management 
activities. At the local ranger district we can try to 
determine from them what's going on on the ground basically. So 
it's generally planned through the Travel Management Access 
plans.
    Senator Heinrich. Let me shift gears here for a second to 
Mr. Roberson. First, let me give you some credit where credit 
is due. I know you worked on the Cooks Peak access issue a 
number of years ago in New Mexico.
    For my colleagues, there is a, I don't know if any of you 
have ever had an opportunity to hunt Coues deer, it is one of 
those species that people travel from all over the world, not 
just the West, to hunt in New Mexico and Arizona for Coues 
deer. Jack O'Connor was a famous hunting and fishing writer, 
who described them as one of the most challenging hunts in the 
world.
    Cooks Peak is one of the places people go on public land to 
hunt Coues deer. Making sure that that access route was open 
had a very positive effect on not only the people's experiences 
but on the local economy.
    I think we're very fortunate, Mr. Roberson in New Mexico to 
have a very good State director and some exceptional district 
managers, who have taken an interest in this access issue, like 
yourself and have made some real progress in recent years. But 
it hasn't always been that way.
    There's a lot more work to be done. One of the things I'm 
interested in doing is making sure that the priority that this 
takes is commensurate with the interest from local residents.
    How can we take the lessons that we've learned which have 
been universally popular in New Mexico and make sure that the 
agencies, particularly the Bureau of Land Management, are 
placing that kind of priority on a system wide basis?
    Mr. Roberson. Thank you, Senator Heinrich.
    The, you know, what we did in New Mexico, I mean the 
challenge is overwhelming. Ten percent of our lands and public 
ownership managed by BLM are available for recreation, but not 
accessible. So it's a big challenge.
    What we had to do to attack the challenge is identify those 
highest priority areas. We did that through interaction with 
the public like the Dona Ana County sportsmen, who I worked 
with quite a bit when I was down there. Then we identified the 
challenges to access that came with each one of those types of 
projects that we would undertake.
    With regard to Cooks Peak the county had stopped 
maintaining the road up to a certain point. That is a challenge 
we face across the West with counties not having the funds to 
maintain roads. So, you have that issue going.
    So how do we address it nationally?
    When I came back to DC in 2007 we issued guidance in 2008 
that said all field offices as you're doing your travel 
management planning, as Greg Smith talked about, identify these 
challenges and opportunities and start to build a strategy. So 
we think--we feel that was in 2007.
    In 2011 we also identified the fact that not only do we 
have a problem with limited staff and an amazingly large 
problem, but also staff that's trained to undertake the work.
    So we put, in 2011, put forth a proposal to improve the 
training for our folks in realty.
    We've issued travel management guidance that also focuses 
on the issue.
    I'm working with Federal lands hunting, fishing, shooting, 
sports round table to identify areas that have been closed or 
are inaccessible to figure out how we can open them.
    We have a Wildlife Hunting Heritage Conservation Council 
which is a Federal advisory committee group that's also working 
directly with the agencies of Interior and Agriculture on 
issues like access.
    I think it is a major part of the strategic plan for 
Interior.
    So we are pushing down on it, but we still have those 
resource issues. I think a phased approach where we can start 
to identify some basic problem areas and start to move forward 
on those nationally is how to start.
    Senator Heinrich. I can't thank you enough because those 
are all concrete, not a morphosis ideas. They're concrete ways 
that you're getting at the problem.
    First off, you said exactly what percentage of your lands 
are inaccessible. That's progress because if you don't know 
what's out there, if you don't have the data, you can't fix it.
    Certainly BLM has a bigger challenge since other agencies 
because your lands are by their very nature, more fragmented, 
often times more checker boarded than other agencies. You're 
identifying the highest priorities in the places you can make a 
difference. I think that's an approach that we'd like to see 
across the board with all the agencies.
    I appreciate your efforts on that front.
    Senator Manchin [presiding]. Sir, I'll follow with my 
second round of questioning and then we'll go to the Senators 
who might have another round.
    So first of all I just want to ask, I only have one, Mr. 
Roberson on regarding S. 2616, the Idaho County Shooting Range 
Land Conveyance Act.
    In the State of West Virginia we did something with our 
natural resource department and basically all of our State 
parks. We made all of our State parks and we're starting to 
look at it now and we've done this in many of our State parks 
which is a shooting range, skeet shooting, sport shooting. We 
have people that teach the children how to properly shoot in a 
whole family outing.
    It's been also additional revenue source. It's also a year 
round activity that they can do when there's other things not 
as--parks aren't quite as active. I don't know what you all are 
doing or what you can do and if you're looking at that to see 
if you can enhance that in other areas.
    I know that Senator Risch had a concern about the 2616 
introducing that bill for that. But are you all expanding in 
looking at ways that you can expand on public lands shooting 
opportunities?
    Mr. Roberson. We are in the process of signing an MOU, an 
interagency MOU, that the Forest Service is also signing with 
the shooting sports round table to improve both the 
relationship that our folks have with shooting sports 
enthusiasts, bringing their expertise into our planning process 
and helping us identify those areas where shooting, 
recreational shooting is important and is perhaps limited. So 
we've--we're working with them to identify those areas to 
become more open to recreational shooting.
    We also--we do have recreation purposes act, the Public 
Purposes Act, that allows us to sell land to local communities 
for purposes such as a real shooting range. I think that was 
one of the challenges that we had, the issue of when you 
develop a shooting range it needs to be state-of-the-art.
    Senator Manchin. Sure.
    Mr. Roberson. You have to have safety fans and all that. We 
were willing to transfer those lands if they're identified for 
sale in our land use plans. The Idaho parcel----
    Senator Manchin. You are not going to operate and you do 
not operate, nor you do not intend to operate?
    Mr. Roberson. No, sir. No, sir.
    Senator Manchin. OK.
    But you're not objectionable to people basically who have 
the expertise to do so, more of a non-profit or State agency or 
something of that sort.
    Mr. Roberson. Yes, sir.
    Senator Manchin. Gotcha.
    Senator Barrasso.
    Senator Barrasso. Thank you, Mr. Chairman.
    First, I'd ask that Senator Murkowski's statement on S. 
1605 to reinstate Michael Faber into the Sealaska Corporation 
be included in the record along with the resolution from the 
Sealaska Corporation on this issue.
    Without objection, apparently it would be OK.
    Senator Barrasso. The other question, Mr. Roberson. Do I 
understand, I know you had someone come over from the Park 
Service to talk a little bit, that the Park Service has the 
administrative authority to waive the liability in order to 
conduct search and rescue?
    Mr. Roberson. I would ask Deputy Chief, Dean Ross, to come 
back out.
    Thank you, sir.
    Mr. Ross. Thank you for your question, Senator.
    Each superintendent at every National Park has the ability 
in the issuance of a permit to examine the requirement for 
liability insurance. That superintendent has the authority to 
make a determination whether that liability insurance is a 
requirement or not.
    Senator Barrasso. I mean, because if so, if they have that 
authority and I would say why did these families have to wait 
for over a year to get closure when, you know, the teams were 
finally allowed to recover their loved ones. That's, kind of, 
the question if they have that authority?
    Mr. Ross. Correct.
    Again, it's a--the Park Service works on a very, we'll call 
it, distributed set of authorities out in the different parks, 
not being a direct participant in the discussions that I 
couldn't give you a direct answer, sir. Sorry.
    Senator Barrasso. You can see why that question might 
arise?
    Mr. Ross. Absolutely. I understand.
    Senator Barrasso. Alright. Thank you.
    Thank you, Mr. Chairman.
    Senator Manchin. Let me thank all of you for coming and 
being so forthright in your discussions and also in your 
answers.
    We will be getting with Chairman Landrieu, the Chairman of 
Energy, and see if we can start developing the sense of this 
committee that might give you some clearance of direction of 
what we're asking.
    It might also help enhance our relationship, so that there 
is a partnership more. We can show the public there is a 
partnership and that we do want to work with them.
    I thank you all again.
    This subcommittee meeting is adjourned.
    [Whereupon, at 10:43 a.m. the hearing was adjourned.]
                               APPENDIXES

                              ----------                              


                               Appendix I

                   Responses to Additional Questions

                              ----------                              

     Response of Gregory C. Smith to Question From Senator Manchin
    Question 1. In the Public Lands, Forests, and Mining Subcommittee 
hearing on July 30, 2014 I asked each of you about the level of 
flexibility your agencies have in being able to act administratively on 
the bills being considered. Both of you said your agencies have some 
degree of flexibility.
    For each of the ten bills considered by the subcommittee on that 
day, I ask that you:

    (1) Enumerate specifically which parts of the bill you can and 
cannot implement administratively.
    (2) Detail precisely where current law does and does not allow you 
to act and why.
    (3) Explain, where appropriate, why your agency has not implemented 
the provisions in these bills.
    Answer.
S. 1888 as introduced; H.R. 1241 as passed by the House
    1.The Forest Service may exchange land with a non-Federal party 
administratively when the exchange is in the public interest, land 
values are equal, and the non-Federal land is located within the 
boundaries of a National Forest. If land values are not equal, either 
party may compensate the other for the difference by making a cash 
payment; however, the amount of cash that can be paid to equalize 
values is capped at 25 percent of the Federal land value.
    2.The bill will allow the Forest Service to consummate a land 
exchange where the non-Federal land is outside of the boundaries of the 
National Forest and also allow the Secretary to accept a cash 
equalization payment in excess of 25 percent of the value of the 
Federal land. The restriction on exchanging land outside of the 
National Forest boundaries is in the General Exchange Act (16 U.S.C. 
485). The cash equalization restriction is in Section 206(b) of FLPMA 
(43 U.S.C. 1716(b)). Additionally, the bill will allow the Forest 
Service to retain any cash equalization payment and use the funds to 
acquire other NFS lands.
    3.The agency has not implemented the exchange as two desirable 
parcels of the non-Federal party's land are located outside the 
boundary of the Inyo National Forest, and the value of the Federal land 
is expected to exceed the value of the non-Federal land in excess of 
the 25% limitation. If this exchange is consummated, the Forest Service 
would likely wait to expend the cash payment until additional highly 
desirable parcels come on the market.
H.R. 3008 as passed by the House
    1. The Forest Service has authority to convey this parcel under the 
provisions of the General Exchange Act (16 U.S.C. 1716(a)) if the 
exchange were in the public interest. However, the Forest Service has 
determined that the exchange would not be in the public interest, as it 
is bad public policy to legitimize encroachments by conveying away the 
land. The parcel is not eligible for conveyance under the requirements 
of the Small Tracts Act (16 U.S.C. 521c - 521i)).
    2. FLPMA (43 U.S.C. 1716(a)) and agency regulations at 36 C.F.R 254 
require a finding that land exchanges completed under the General 
Exchange Act (16 U.S.C. 485) be in the public interest. The Forest 
Service does not believe that a land exchange to convey the parcel at 
issue would be in the public interest as it is bad public policy to 
legitimize encroachments by conveying away the land. The Forest Service 
has authority to resolve certain encroachments under the Small Tracts 
Act (P.L. 97-465). To qualify under the Small Tracts Act, the 
encroachment must have occurred based on the property owner's reliance 
on an erroneous survey, title search, or land description. The Small 
Tracts Act also requires a public interest determination. In the case 
of the White Lotus Foundation, the Los Padres National Forest 
determined that the encroachment is not eligible for conveyance under 
the Small Tracts Act, because the encroachment is not based on 
erroneous survey, deed or other title evidence. Furthermore, it does 
not meet the eligibility requirements due to the nature of the 
improvements located on National Forest System lands (e.g. yurts, 
statues). Even if it were eligible, it would not be in the public 
interest to do so, because it does not meet the public interest 
criteria in the Regulations.
    3. The encroachment could be solved administratively under the 
General Exchange Act. However, the Forest Service does not believe that 
the conveyance would meet the public interest requirement for the 
reason stated above, nor is it eligible for conveyance under the Small 
Tracts Act (16 U.S.C. 521c-521i)).
S. 1554 as introduced
    1. The reporting requirements of the bill could be implemented 
administratively. The agency could choose to dedicate 1.5% of Land and 
Water Conservation Fund (LWCF) funds to secure public access to Federal 
land for hunting, fishing, and other recreational purposes.
    2. The reporting requirements would not be restricted by other law 
if the Agency followed them administratively.
    3. Currently, the Forest Service does not have the data requested 
by the bill. The legal status of access to many of the parcels cannot 
be established without significant historical and legal research on a 
case-by-case basis. As stated in the Department's testimony, acquiring 
meaningful data would also be costly and time consuming and it would 
probably be outdated by the time it was compiled because of constantly 
changing ownerships and subdivision of properties. Another reason the 
Agency has not compiled this information is that it would not provide a 
product that will help to resolve these access issues and would also 
draw considerable resources away from working on actual access 
projects. At the local level, units already know where the lack of 
legal access is a problem.
H.R. 1684 as passed by the House
    1. The Forest Service does not have authority to sell the parcel or 
convey it under other authorities without consideration.
    2. Current law allows the Forest Service to exchange land at market 
value, but it cannot convey land, with or without consideration.
    3. The Forest Service does not have authority to sell this parcel 
or convey it under other authorities without consideration.
H.R. 2166 as passed by the House; S 1049 as introduced
    1. The Forest Service will be able to implement provisions in S. 
1049 which require development of a process designed to expedite access 
to Forest Service lands to eligible organizations and individuals to 
conduct Good Samaritan Search and Rescue missions. The Forest Service 
will not be able to implement the liability provisions 
administratively.
    2. The Forest Service can implement the Search and Rescue 
provisions in areas designated with special area closures such as fire 
or avalanche closures; however access may be limited or modified due to 
safety concerns. In Wilderness areas, the bill could be implemented 
administratively, but the Wilderness Act (16 U.S.C. 1131(note) would 
limit the use of motorized equipment or mechanical transport. Emergency 
motorized use can be granted where ``the situation involves an 
inescapable urgency and temporary need for speed beyond that available 
by primitive means'' for emergency situations involving imminent threat 
to life and property, or a deceased individual.
    3. The Forest Service has already substantially implemented the 
provisions of this bill. We do not have the authority to waive 
liability and Wilderness Act provisions. If the bill were to become 
law, we would still consider the safety of allowing access if it were 
requested in an area with a special closure like avalanche or wildfire 
closures.
    Responses of Gregory C. Smith to Questions From Senator Heinrich
    Question 1. How many acres of national forest system land are 
legally inaccessible to the public? What forests or grasslands are 
those inaccessible lands located in?
    Answer. Currently, the Forest Service does not have National-level 
data on the number of acres or location of land that is legally 
inaccessible to the public. Gathering legal access information may be 
somewhat informative, but would do little to solve the public's access 
needs. At the local level, units know where the lack of legal access is 
a significant problem. There are many areas of the National Forest 
System where the public has no legal right of access, but where public 
access is based on historical use or goodwill of landowners. These 
traditional arrangements are gradually disappearing as landowners 
change and as tolerance for user abuses of private land decreases. The 
number of cases in this category may represent the largest access issue 
for the Forest Service. In many of these situations, only the courts 
will be in a position to establish where the United States holds a 
legal right to public access. The need for a case-by-case determination 
makes nationwide data collection essentially useless. Another 
complicating factor is that the public often considers lack of 
convenient access or lack of road and trail systems as access problems.
    The problem of obtaining access to the National Forest System is a 
very complicated situation. We are working to finalize a report on the 
topic requested by OMB. When finished we would be happy to share the 
report with you and others on the committee and work toward a better 
understanding of the complexity of the problem and potential solutions.
    Question 2. Has the number in question 1 increased or decreased 
over the last five years? Over the last ten years?
    Answer. As explained in response to Question 1, the Forest Service 
does not have National-level data on the number of acres or location of 
land that is legally inaccessible to the public so the differences from 
the current situation to the situation 5 or 10 years prior cannot be 
determined empirically. Anecdotally, we believe the public is losing 
access to National Forest System lands based on historical use and 
practices. Access, in many areas, is based on the goodwill of 
landowners who have allowed the public and Agency staff to travel 
across their land to gain access to other areas of the national 
forests. As demographics have shifted and lands are sold, the new 
property owners are installing gates and blocking access to these areas 
that may have no other convenient, legal or practical access. In many 
of these cases access will need to be determined in a legal proceeding. 
This trend of loss of historical access will probably continue to 
increase in magnitude, and new owners have generally proven unwilling 
to sell rights-of-way to the United States that would allow these areas 
to remain open. These parcels are often are not available for outright 
purchase. The Forest Service actively defends attempts to shut off 
access on those routes where the United States clearly has legal 
access.
    Question 3. During the hearing, you said that the Forest Service 
considers access to lands during the travel management planning 
process. Can you provide more detail on how TMPs assess and improve 
public access to the boundary of national forest system lands (as 
opposed to the question of how people travel once they have reached FS 
lands)?
    Answer. To the extent possible, the status of legal access is 
evaluated during the travel management planning process. However, the 
legal status of access to many parcels cannot be established without 
significant historical and legal research on a case-by-case basis. 
Ultimately, in some cases it can only be determined through litigation. 
There are many areas of the National Forest where we have no legal 
access but there is still public access based on historical use or 
goodwill of landowners. It is also believed that lack of convenient 
access or lack of road and trail systems is often how the public 
defines public land access problems. These elements are clearly 
considered through the travel management planning process.
    Question 4. How often are travel management plans scheduled to be 
updated? In practice, what is the average time between TMP updates?
    Answer. There is no requirement for scheduled updates. Revisions 
are made as needed. The Forest Service Manual envisions annual review 
and reissue of motor vehicle use maps.
    Question 5. When developing a forest plan under the new forest 
planning rule, how do forests assess the availability of public access 
to forests lands, and do the forests plans include any mechanism to 
recommend actions to improve public access?
    Answer. Under the new planning rule, the Forest Service is required 
to assess recreational access and infrastructure in each national 
forest, including transportation corridors in the assessment phase of 
the planning process (36 CFR 219.6 (b)(9) and (11); see also the 
proposed planning directives at FSH 1909.12, Ch. 10, sec 13). In the 
development of plan components, the Forest Service is also required to 
consider appropriate placement and sustainable management of 
transportation corridors (36 CFR 219.10 (a)(3); see also the proposed 
planning directives at FSH 1909.12, Ch. 20, sec. 23.22o). The proposed 
planning directives emphasize evaluating lands in terms of the 
different kinds of recreational settings and opportunities appropriate 
for the use of plan areas and portions thereof, and the type of access 
needed for those areas (proposed planning directives at FSH 1909.12, 
Ch. 20, and sec 23.22b). Note, the proposed planning directives were 
made available for public review and comment on February 27, 2013 (78 
FR 13316; see also: http://www.fs.usda.gov/detail/planningrule/home/
?cid=stelprdb5403924). The final directives are expected to be issued 
before the end of the calendar year.
    Response of Gregory C. Smith to QuestionsFrom Senator Murkowski
    Question 1. In your testimony on H.R. 3008, ``to provide for the 
conveyance of a small parcel of land in Los Padres National Forest,'' 
you expressed concern about the precedent this bill would set because 
it would resolve an encroachment legislatively.
    a. Please explain why the Forest Service sees this as an 
``encroachment'' case that would set a bad precedent and not simply a 
resolution of a public access problem?
    Answer. There are thousands of encroachments on our national 
forests. The number is growing rapidly given the increase in 
development adjacent to the national forests. Generally, these 
encroachments chip away at public ownership and cause conflicts with 
legal users. Many of these encroachments are created by property owners 
who are aware of the legal boundaries or by those who have failed to do 
minimal due diligence necessary to determine their property boundaries. 
If this or similar legislation is passed, it could potentially 
encourage additional encroachment knowing that a legislative fix may be 
available.
    One of the primary purposes of the Small Tracts Act (P.L. 97-465) 
is to addresses substantial encroachments on National Forest System 
lands due to legitimate title and survey issues. The Act also further 
defined those eligible cases which were in the public interest. The 
White Lotus Foundation parcel is not eligible under the Small Tract 
Act.
    b. Is legislation necessary to resolve this ``encroachment?'' Why 
or why not?
    Answer. The Forest Service has authority to convey this parcel 
under the provisions of the General Exchange Act (P.L. 67-173); 
however, the Forest Service has been unwilling to do so, believing it 
not in the public interest. The parcel is not eligible for conveyance 
under the requirements of the Small Tracts Act (P.L. 97-465).
      Response of Gregory C. Smith to Question From Senator Heller
    Question 1. I would like to ask a broader search and rescue 
question related question that has come up recently in my state. Fires 
in wilderness areas are not uncommon, and many are heavily recreated. 
Could you clarify the department's authority to allow local law 
enforcement to conduct search and rescue missions within Inventory 
Roadless Areas? What are the limitations on these types of missions?
    Answer. The Department has full authority to allow search and 
rescue missions in Inventoried Roadless Areas. Roadless area 
prohibitions are generally for road construction and timber harvest, 
and do not usually limit access for search and rescue operation, even 
those including motorized equipment and mechanical transport.
                                 ______
                                 
        Response of Ed Roberson to Question From Senator Manchin
    Question 1. In the Public Lands, Forests, and Mining Subcommittee 
hearing on July 30, 2014, I asked each of you about the level of 
flexibility your agencies have in being able to act administratively on 
the bills being considered. Both of you said your agencies have some 
degree flexibility
    For each of the ten bills considered by the subcommittee on that 
day, I ask you:

    (1) Enumerate specifically which parts of the bill you can and 
cannot implement administratively.
    (2) Detail precisely where current law does and does not allow you 
to act and why.
    (3) Explain, where appropriate, why your agency has not implemented 
the provisions in these bills.

    Answer.
S. 1437
    S. 1437 would release the reversionary as well as the reserved 
mineral interests of the United States in approximately 290 acres of 
land currently held by Oregon State University for the Hermiston 
Agricultural Research and Extension Center. The 1950 law (P.L. 81-825) 
and Patent #166211, under which the land was conveyed without 
consideration to Oregon, both state that if the conveyed land is not 
used for agriculture research and extension purposes, the land and 
interests in the land revert to the United States. The BLM does not 
have the administrative authority to release these reversionary and 
reserved mineral interests. The BLM would support S. 1437 if amended to 
ensure the payment of fair market value for the conveyance of 
reversionary and reserved mineral interests in these parcels to the 
State of Oregon, consistent with previous legislative proposals.
S. 1554
    S. 1554 would require the BLM, National Park Service, Fish and 
Wildlife Service, and the U.S. Forest Service, to produce a report, 
within 180 days and annually thereafter, identifying all parcels 
greater than 640 acres for which hunting, fishing, or recreational uses 
are allowed by law but public access is inadequate or unavailable; to 
analyze whether that list of parcels has significant potential to be 
used for hunting, fishing, or recreation; and to develop a plan that 
outlines the most reasonable course of actions needed to obtain or 
acquire access. The bill also requires that within one year, the 
agencies make available on a website a list of roads and trails that 
are the primary access and egress for all parcels greater than 640 
acres. Additionally, the bill requires that 1.5 percent of LWCF monies 
be allocated for acquiring access to inaccessible land.
    As discussed in the statement for this bill, providing access to 
recreation on public lands is one of the Department's primary missions, 
and the Department's bureaus carry out the management of the lands 
under their jurisdiction according to the organic statutes that 
authorize their activities.
    The BLM's implementation of the goals of S. 1554 under existing 
administrative authority is ongoing. More than 90 percent of BLM-
managed lands are accessible to the public for recreational purposes. 
The agency inventories public lands, and manages the land according to 
resource management plans (RMP.) As part of travel management planning, 
access to public lands is assessed through field GPS data collection as 
well as significant research on road and trail ownership and legal 
access status. (BLM's RMPs are regularly updated; some older RMPs may 
not yet have been revised to include travel management planning.) Both 
the RMP process and the development of travel management plans offer 
opportunities for public involvement (identifying priority desired 
access, for example), and the BLM's management plans are available to 
the public on our website. Site-specific recreational information is 
available to the public on the BLM's website. Additionally, the BLM 
prioritizes LWCF funding to enhance opportunities to expand 
opportunities for hunting, fishing, and recreation and already has the 
authority to allocate 1.5 percent administratively.
    Hunting and fishing are two priority public uses of the National 
Wildlife Refuge System, managed by the U.S. Fish and Wildlife Service 
(FWS). Over 500 national wildlife refuges and wetland management 
districts are open for fishing, wildlife watching, hunting, photography 
and other forms of recreation, with 335 refuges open for hunting and 
271 for fishing. Refuges rely upon comprehensive conservation plans to 
identify areas to be opened to the public and are required to undertake 
appropriate use and compatibility reviews before new recreation 
programs can be offered. Refuge Managers often need to balance 
interests in opening new public use areas against other management 
considerations, such as emergency closures to protect critical 
resources that may change frequently. Many of the FWS's LWCF 
acquisition projects provide or enhance public outdoor recreation, 
including through acquisition of fee title or conservation easements. 
In fact, a number of the acquisition projects included in the FWS's 
fiscal year 2015 budget request include providing public access to 
refuge lands as a purpose for the acquisition.
    The National Park Service (NPS) manages 84 million acres of land in 
401 national parks across the United States. The National Park System 
was created to conserve unimpaired many of the world's most magnificent 
landscapes. These special places must be managed in a special way, as 
required by the 1916 Organic Act, that will allow them to be enjoyed 
not just by those who are here today but also by the generations that 
follow. Congress has authorized hunting in 61 of the 401 units of the 
national park system. The NPS's land acquisition program is an 
important tool for enhancing recreational access and opportunities, in 
addition to its role in realizing other key goals of the NPS, such as 
protecting America's historic and cultural resources and supporting the 
restoration and conservation of rivers, bays, coasts, lakes, and 
estuaries for recreation, healthy fisheries, and wildlife habitat.
    While the reporting requirements could be carried out 
administratively, as noted in the statement for this bill, we are 
concerned about the volume of data collection and analysis required by 
the legislation, which would require extensive staff time to complete, 
diverting staff from other tasks. In particular, this seems unnecessary 
when Congress has only authorized hunting in 61 out of 401 units of the 
national park system.
    The Department would like to work with the sponsor and the 
committee to ensure that the bill's reporting requirements can be met 
given existing data and staffing limitations.
S. 2616
    S. 2616 would require the conveyance (without consideration) of a 
31-acre parcel of BLM-managed land to Idaho County, Idaho, to be used 
as a shooting range. While the BLM does have the authority to convey 
certain lands at very low or no cost for public purposes under the 
Recreation and Public Purposes Act (R&PP), this proposed conveyance 
does not meet the requirements for an R&PP conveyance. The parcel to be 
conveyed by S. 2616 is part of a larger area of public lands withdrawn 
by Public Land Order 7671 of September 8, 2006, to protect the Lower 
Salmon River in Idaho, Lewis, and Nez Perce Counties. As a result, the 
BLM lacks the authority to dispose of these lands administratively. 
However, the BLM supports a legislative conveyance of this parcel for a 
shooting range or other public purposes and would support S.2616 if 
amended to include a reversionary clause to ensure that the parcel 
continues to be used for public purposes.
S. 1640
    S. 1640 would amend the Lincoln County Land Act of 2000 (LCLA) and 
Lincoln County Conservation Recreation and Development Act of 2004 
(LCCRDA) to allow the BLM to use the Federal special accounts for 
implementation of the multispecies habitat conservation plan (MSHCP), 
pinyon-juniper restoration projects, and compliance activities for the 
Dry Lake Valley North Solar Energy Zone. S. 1640 also directs the BLM 
to enter into cooperative agreements with Lincoln County for planning 
and law enforcement activities.
    Because spending of the Federal special accounts is explicitly 
directed by Congress in those Acts, the BLM does not have the authority 
to implement the provisions of S. 1640 administratively. The BLM is 
currently implementing all the provisions of the LCLA and LCCRDA as 
directed.
    The BLM does have administrative authority to manage vegetation, 
including pinyon-juniper, on the lands it manages, using appropriated 
funding. Under the provisions of FLPMA, the BLM also has the authority 
to enter into cooperative agreements. The BLM currently has a 
cooperative agreement with Lincoln County for the support of a MSHCP 
coordinator, with funding provided under LCCRDA.
    S. 1640 also amends LCCRDA's utility corridor withdrawal 
boundaries, and the BLM has technical corrections to ensure that the 
entirety of the unused land is released from the corridor withdrawal. 
The BLM does not have the ability to administratively release these 
unused lands and supports the legislative provision with technical 
corrections. The BLM supports many of the goals of S. 1640 and looks 
forward to working with the sponsor and the Subcommittee on issues 
raised in our testimony and on the continued implementation of LCLA and 
LCCRDA.
S. 1605
    As noted in the statement for this bill, S. 1605 is a private 
relief bill on behalf of Michael G. Faber, who formally renounced 
eligibility for benefits or shareholder status in an Alaska Native 
Corporation through enrollment with the Metlakatla Indian Community of 
the Annette Island Indian Reservation in Southeast Alaska. While the 
Department did not oppose the relief provided in the bill, the 
Department lacks the authority, without legislation, to correct the 
Alaska Native Roll and because Sealaska is a for-profit corporation 
chartered under the laws of the State of Alaska, cannot ensure the 
issuance of stock to Mr. Faber even if the legislation is enacted.
S. 1049 and H.R. 2166
    S. 1049 and H.R. 2166 would require the Secretaries of the Interior 
and Agriculture to develop and implement a process to expedite access 
to federal lands for eligible organizations and individuals who request 
access to federal lands to conduct good Samaritan search and recovery 
missions. There is nothing in current law that would prevent the NPS 
from carrying out any of the provisions of S. 1049 and H.R. 2166, 
therefore all of the provisions in these bills could be implemented 
administratively.
    Park superintendents have the authority to require liability 
insurance for higher risk activities to protect the federal government 
and the search organization from liability. Some searches are 
considered higher risk activities, for example because of the terrain, 
extreme temperatures, because the search and rescue organization 
seeking to carry out the activity may not have established 
qualifications. NPS can and does waive liability insurance for 
qualified search organizations, and routinely partners with search 
groups throughout the country, both through formal partnerships and 
through volunteer organizations, to conduct search and rescue, and 
search and recovery operations.
S. 2123
    S. 2123 would resolve a long-standing effort to exchange certain 
federal land held by the U.S. Geological Survey and non-federal parcels 
held by a school district in Grand Rapids, Minnesota. USGS and the 
school district had been discussing exchange of these parcels for over 
a decade, but USGS lacks the authority to carry out such an exchange. 
S. 2123 would provide that authority, and USGS supports the 
legislation. Question from
         Response of Ed Roberson to Question From Senator Wyden
    Question 1. I understand the concerns the Administration has about 
this bill and it is my hope that we can continue to work with you to 
iron out these differences and give Oregon State University the best 
opportunity to grow and invest in their agricultural efforts for years 
to come. Can I get your assurance that you and your colleagues will 
continue to communicate and work with the folks at Oregon State 
University and the State of Oregon on this important issue?
    Answer. Yes, the BLM will continue to work with Oregon on this 
issue.
       Responses of Ed Roberson to Questions From Senator Heller
    Question 1. In the Administration's testimony, you stated that land 
sales under the Lincoln County Land Act of 2000 has yielded over $47 
million, $31 million still currently within that account.
    S. 1640 allows the Department to utilize those funds for 
restoration projects in pinyon-juniper dominated landscapes. Any 
activities authorized under this bill would utilize funds already in 
that account, correct?
    Answer. Correct. S. 1640 would authorize additional uses for the 
funds in the Federal special account for the Lincoln County Land Act of 
2000, which currently totals $31 million.
    Question 2. Some members unfamiliar with federal lands issues 
sometimes get confused about these types of public lands proposals, 
Congress would not have to appropriate any new dollars to implement the 
conservation projects allowed for this act? This bill would have no new 
costs?
    Answer. S. 1640 would authorize additional uses for the existing 
funds in the Federal special accounts for the Lincoln County Land Act 
of 2000 and the Lincoln County Conservation, Recreation and Development 
Act of 2004.
    Question 3. I would like to ask a broader search and rescue 
question related question that has come up recently in my state. Fires 
in wilderness areas are not uncommon, and many are heavily recreated. 
Could you clarify the department's authority to allow local law 
enforcement to conduct search and rescue missions within Wilderness 
Areas and Wilderness Study Areas? What are the limitations on these 
types of missions?
    Answer. Search and rescue does occur within wilderness, normally 
without on-the-ground vehicles, but vehicles may be used when required 
in an emergency. This would be the case in situations such as life or 
death, search and rescue, and when concern for human life and safety is 
present.
    Question 4. In my questioning regarding S. 1049 and H.R. 2166, the 
National Park Service stated that these bills are not necessary because 
the Administration already has the flexibility under existing law to 
enter into these good Samaritan partnerships. If that is the case, why 
did it take the NPS over a year to allow a search and rescue crew to 
search Lake Mead National Recreation Area for Mr. Keith Goldberg's 
remains?
    Answer. The NPS recognizes the anguish to the Goldberg family 
caused by the delay in the search for the remains of Mr. Keith Goldberg 
and has great sympathy for the family.
    Rangers at Lake Mead National Recreation Area respond successfully 
to hundreds of searches, rescues and recoveries every year, and 
understand the importance of helping families find closure when a loved 
one has lost his or her life. Our intent for every search and recovery 
mission is to recover the remains of deceased individuals without 
putting others at risk of injury or death.
    The delay in allowing Red Rock Search and Rescue to search within 
Lake Mead National Recreation Area was due to the fact that the 
volunteers did not have liability insurance or established search and 
rescue qualifications. Park superintendents have the authority to 
require liability insurance for higher risk activities both to protect 
both the federal government and the search organization from liability 
arising from injury or damage associated with the search. The search 
for Mr. Goldberg's remains was considered a moderate- to high-risk 
activity because of uneven, rocky terrain, extreme desert temperatures, 
and because Red Rocks Search and Rescue, at that time, did not have 
established qualifications. Today, Red Rocks Search and Rescue has 
dozens of members certified to National Association of Search and 
Rescue standards, and have an active partnership with Lake Mead 
National Recreation Area where they regularly assist with search 
missions.
                              Appendix II

              Additional Material Submitted for the Record

                              ----------                              

    Statement of Garrett VeneKlasen, Executive Director, New Mexico 
                  Wildlife Federation, Albuquerque, NM
    Chairman Manchin, Ranking Member Barrasso, members of the 
Subcommittee:
    Thank you for giving me the opportunity to present my perspective 
on the HUNT Act, especially as it pertains to access to federal lands 
in New Mexico.
    My name is Garrett VeneKlasen. I am a native New Mexican and have 
spent my entire life hunting and fishing throughout the Southwest. 
Before taking my current position as the Executive Director of the New 
Mexico Wildlife Federation, I was the Southwest Director for Trout 
Unlimited, working on coldwater restoration and public land protection 
projects throughout New Mexico, Arizona and Colorado.
    Hunting and fishing are more than just ``sport'' in New Mexico. 
They are the oldest of our core cultural land use values with a 10,000-
year tradition.
    Today, hunting and fishing are also are a key part of our state's 
economy. In addition to the tens of thousands of non-resident hunters 
and anglers who visit New Mexico each year, more than 300,000 state 
residents hunt, fish or both. Economic studies show that New Mexico 
resident sportsmen and women spend $579 million statewide every year. 
Those dollars support $258 million in salaries and wages, contribute 
$58 million to state and local taxes and create 7,695 jobs annually--
many in rural parts of the state--according to the Outdoor Industry 
Association of Boulder, Colo.
    This vibrant industry and our cultural values and lifestyle are 
dependent upon two things: healthy, viable habitat for our fish and 
wildlife, and large, undeveloped tracts of public lands in which our 
rapidly growing community can recreate.
    Public lands, both state and federal, are a crucial component of 
New Mexico's outdoor recreation economy and tradition. Eighty-nine 
percent of New Mexico sportsmen and women rely on public lands to hunt 
and fish.
    Let me repeat that: Eighty-nine percent of New Mexico sportsmen and 
women rely on public lands to hunt and fish.
    Hunters and anglers throughout the West are blessed to live in 
close proximity to federal public lands managed by the U.S. Forest 
Service, Bureau of Land Management and other agencies. Unfortunately, 
millions of those acres are not open to the very people who hold title 
to them--the American public. A recent study by the Center for Western 
Priorities found more than 4 million acres of federal public land in 
the West is off-limits to the public because there is no legal access.
    My state is a case in point. The same report found the public is 
locked out of more than half a million acres of federal public lands in 
New Mexico. The number is actually higher because many of our State 
Trust Lands are also inaccessible.
    There are many reasons why these so-called public lands are no 
longer open to the public. In some cases, there is one road leading to 
a parcel of Forest Service or BLM land and that road goes through 
private property. When a landowner locks the gate, there's nothing the 
public can do about it.
    In other cases, agencies or individuals including previous New 
Mexico Commissioners of Public Lands have sold or traded parcels that 
provided the only reasonable access to portions of national forests or 
BLM holdings.
    We have had numerous instances in New Mexico where a county 
commission will permanently vacate a county road under its 
jurisdiction, thereby eliminating access to federal public land at the 
end of that road.
    And we recently learned of instances where private landowners have 
blocked access to federal public land by moving or locking a driveway 
gate without permission of the New Mexico Department of Transportation.
    The fact is, we don't really know how much federal public land is 
actually closed to the public because the land management agencies do 
not track such things. Nor do they have the staff to monitor illegally 
locked gates on every tiny backcountry road that leads to federal 
public land.
    So it should be no surprise that New Mexico sportsmen strongly 
support the HUNT Act, sponsored by our own Sen. Martin Heinrich. As a 
hunter himself, Sen. Heinrich probably knows from personal experience 
the disappointment of finding a locked gate and blocked access to land 
that should be open to the public but is not.
    Perhaps one of the most important aspects of the HUNT Act is that 
it would require federal land management agencies to inventory their 
holdings and identify large tracts--parcels one square mile or larger--
that have hunting or fishing potential but that currently have no or 
inadequate access. This is crucial because, as the saying goes, ``We 
don't know what we don't know.''
    The Act requires agencies to continue monitoring their inventories 
and report back to Congress whether public land access is improving or 
shrinking.
    The HUNT Act is not just a fact-finding mission, however. After 
determining which large parcels have hunting or fishing potential but 
lack access, the agencies must propose plans to create access.
    Access plans might include working with a willing landowner to 
purchase permanent easements through private land, or developing 
minimal access roads to respectfully circumvent private property. The 
legislation does not call for creating new roads through inaccessible 
parcels, but rather new roads to the boundary of those landlocked 
public lands.
    Hunters and anglers realize neither the Forest Service nor the BLM 
currently has the funding to acquire access to our public lands, but 
the HUNT Act comes with its own funding. By using 1.5 percent of the 
Land and Water Conservation Fund, the agencies will be able to fulfill 
the goals of the HUNT Act.
    The Land and Water Conservation Fund was created specifically to do 
the kind of work outlined in the HUNT Act--to provide the American 
public with outdoor recreational opportunity. Creating access to our 
existing treasure trove of public lands will pay dividends many times 
over by bolstering our outdoor recreation economy.
    In closing, I reiterate the support of thousands of New Mexico 
hunters and anglers for passage of the HUNT Act. It is commonsense, 
fiscally responsible legislation that will ensure millions of Americans 
have an opportunity to enjoy the public lands so sensibly protected 
years ago through the bipartisan support of Congress.
    Thank you.
                                 ______
                                 
   Statement of Ganga White, President White Lotus Foundation, Santa 
                       Barbara, CA, on H.R. 3008
    Thank you Chairman Manchin and Ranking Member Barrasso for 
scheduling this hearing today on H.R. 3008. I am Ganga White, President 
of the White Lotus Foundation, a small non-profit educational 
organization located on San Marcos Pass Road about six miles north of 
Santa Barbara and adjacent to the Los Padres National Forest. The 
Foundation has called this location home since 1983. This bill, 
sponsored by Congresswoman Lois Capps would authorize the Forest 
Service to conduct a land exchange with the White Lotus Foundation for 
a small discontiguous parcel of land located on the perimeter of the 
Los Padres National Forest. In the event that no piece of land is found 
to exchange, the Forest Service will have the authority to convey the 
land to White Lotus.
    As I mentioned, The White Lotus Foundation has been located on San 
Marcos Pass Road just north of Santa Barbara since 1983. Shortly after 
purchasing the land, we received notice from the Forest Service that we 
were encroaching on Forest Service Land. Apparently, the short access 
road that provides the only access to the Foundation's property loops 
onto Forest Service land and then back onto private property. The 
encroachment was created when the State moved Highway 154. Access to 
our land is now on the abandoned old section of highway that crosses 
the National Forest.
    However, due to the very steep topography, the Foundation has no 
possible alternatives to move the portion of the access road that 
encroaches on the Forest Service property. The loop lies on flat 
ground, which has held equipment storage for fire and flood 
emergencies, and provides the only access to our land from Hwy 154 and 
the only access to water pumps and other necessary equipment. There is 
no other flat ground on which to move these items, and without this 
space the Foundation will be forced to cease its operations.
    To avoid such a consequence, the Foundation and the Forest Service 
explored all administrative remedies available to the Forest Service. 
Having exhausted all possible solutions, it was at the direction of our 
local Forest Service that we originally came to Congress four years 
ago. During that time previous versions of H.R. 3008 have passed the 
full House and the Senate Committee of jurisdiction, but have yet to be 
considered on the Senate floor.
    The actual loop area in question is approximately 5,000 square 
feet, or 0.5 acres and is discontiguous from the larger National 
Forest.
    H.R. 3008 will cost the taxpayers nothing. The White Lotus 
Foundation will pay for the land, the survey, and all administrative 
costs potentially involved in an exchange. There are no exemptions from 
NEPA or any other environmental laws. Additionally, the land proposed 
for conveyance is not protected wilderness or any other specially 
designated area.
    Thank you.
                                 ______
                                 
     Statement of the Backcountry Hunters and Anglers, Bull Moose 
Sportsmen's Alliance, National Wildlife Federation, Theodore Roosevelt 
         Conservation Partnership, Trout Unlimited, on S. 1554
    Each year, America's 40 million hunters and anglers contribute $200 
billion to the national economy, and support millions of American jobs. 
Hunting and fishing aren't mere pastimes, they are lifestyles; 
lifestyles that depend fundamentally on access to quality fish and 
wildlife habitat. For many hunters, including 72 percent of all hunters 
in the Mountain West and Pacific states, access means public lands. 
Without reliable access to quality habitat, sportsmen reduce their days 
afield and reduce their economic impact. For small towns across the 
country, fewer sportsmen mean fewer customers, fewer jobs, and a lower 
quality of life. Of course, it is no mystery why sportsmen and women 
stay home: the single most prevalent reason hunters and anglers stop 
hunting and fishing is lack of access.
    Generally speaking, much of the federal estate is open to hunting 
and fishing; indeed hunting and fishing, and outdoor recreation more 
broadly, comprise a very core function of these public landscapes. 
However, a 2004 report to the United States House of Representatives 
Appropriations Committee concluded that 35 million acres of Bureau of 
Land Management (BLM) and US Forest Service (USFS) land has inadequate 
access. In some cases, this may mean insufficient parking, poorly 
maintained trails, or deficient signage. Sportsmen of course need no 
formal reports to know that quality access is an ongoing challenge, 
with hunters and anglers increasingly running into locked gates and 
posted signs.
    S.1554, The Hunt Unrestricted on National Treasures (HUNT) Act, 
before the subcommittee today, would help to solve a particularly 
problematic, yet highly avoidable, form of restricted access: that of 
public lands surrounded in close proximity, or ``landlocked,'' by 
privately-owned lands. A 2013 report found that more than four million 
acres of public lands in the West remain inaccessible to outdoor 
recreation because of challenges related to proximate private land 
ownership.
    The HUNT Act begins the process of addressing de facto access 
closures by identifying public tracts larger than 640 acres that, due 
to prevailing land ownership patterns, are off limits to public access. 
For each of those major parcels, the legislation would seek to 
establish the most appropriate method for providing public access, 
working with willing landowners to purchase voluntary access easements. 
When signed by the president, the HUNT Act will represent the only 
federal program specifically targeting landlocked public lands for 
enhanced access.
    In some cases, a simple spur trail across private lands acquired 
under HUNT Act provisions could quite literally open thousands of acres 
to appropriate public use. In this way, the HUNT Act represents a cost-
effective way to make sure Americans are permitted the fullest access 
possible to their public land legacy.
    What's more is the sensible way in which the HUNT Act funds the 
acquisition of voluntary access easements from willing landowners, by 
designating 1.5 percent of Land and Water Conservation Fund dollars 
specifically for establishing bona fide access to these large tracts 
currently inaccessible to outdoor recreation enthusiasts. By using this 
appropriate funding mechanism, the HUNT Act requires no increase in 
federal expenditures, while guaranteeing a significant return on 
investment.
    The Theodore Roosevelt Conservation Partnership, Backcountry 
Hunters and Anglers, Bull Moose Sportsmen's Alliance, National Wildlife 
Federation, and Trout Unlimited support better recreational access 
across the federal land management paradigm and we view Senator 
Heinrich's HUNT Act as an important step forward in the issue of making 
public lands public. We encourage the Energy and Natural Resources 
Committee to move ahead expeditiously with favorable consideration of 
Senate bill 1554. We appreciate the opportunity to share our thoughts 
with you today, please be in touch with additional questions or 
concerns.
                                 ______
                                 
     Statement of Hon. Joe Heck, U.S. Representative, on H.R. 2166
    I want to thank Senator Manchin, Senator Barrasso, Senator 
Landrieu, and Senator Murkowski for holding this important hearing on 
my bill, H.R. 2166, the Good Samaritan Search and Recovery Act. I also 
want to think Senator Heller for introducing companion legislation in 
the Senate. This bill addresses an issue that has become very visible 
in my Congressional district in Nevada, and I am grateful that the 
Committee is looking more thoroughly into the issue of bureaucratic 
impediments to volunteer search and recovery efforts on public lands.
    On January 31, 2012, Las Vegas taxi driver Keith Goldberg went 
missing. Investigators believed that he was killed and the body 
disposed of in the desert in the vicinity of the Lake Mead National 
Recreation Area. Local law enforcement suspended their search when 
Keith was not found and arrests were made in April 2012. But the 
Goldberg family still wanted answers. They wanted to find Keith and 
bring closure to what had been a heart-wrenching experience.
    The Goldberg family turned to Red Rock Search and Rescue, a non-
profit search and rescue team that helps families like the Goldberg's 
when loved ones go missing. The team at Red Rock SAR is a trained group 
of volunteers with extensive experience. The Goldberg's were hopeful 
that with Red Rock's help they would be able to close this tragic 
chapter of their lives.
    As Red Rock prepared to start their search they ran into a number 
of bureaucratic road blocks. They needed to obtain a special use permit 
and they needed to obtain a liability insurance policy. Though the 
obtaining of a special use permit was more of a formality and not a 
major hindrance of Red Rock's efforts, the requirement that it obtain 
an expensive liability insurance policy was, especially when the 
organization worked off of a very meager operating budget of $25,000 
per year.
    Recall, this is a trained, non-profit, volunteer, Good Samaritan 
organization trying to bring closure to a family by searching for their 
lost family member for free and at no expense to the taxpayer. They 
provide a valuable community service, and they needed to be able to 
gain access to the public park in order to conduct their search.
    Some fifteen months after Keith Goldberg disappeared, Red Rock was 
able to find an insurance policy and obtain the requisite permits that 
would allow them to start their search.
    In less than 2 hours of Red Rock SAR beginning its search, it 
discovered remains that have been matched to Keith Goldberg. The 
Goldberg family had their closure.
    But the Goldberg's story is not unique. Air Force Staff Sergeant 
Antonio Tucker was presumed drowned on June 23, 2012. As the National 
Park Service searched, they were contacted by Steve Schafer, owner of a 
company specializing in underwater survey and recovery work. He offered 
to help, but was told the Park Service had all the help it needed. 10 
months later, after hiring an attorney, filing a request for public 
documents, and applying for a special use permit, Mr. Schafer was 
finally cleared to search the lake.
    Once Mr. Schafer was cleared to begin his search, Staff Sergeant 
Antonio Tucker's body was discovered in less than 2 days. Antonio 
Tucker's family waited 10 months for closure.
    A spokesperson for the Lake Mead National Recreation Area 
acknowledged that Schafer and his team had more advanced equipment than 
the service does and stated, ``We should be able to utilize their 
services much more rapidly.''
    Having thought about these issues as a former member of the Las 
Vegas Metropolitan Police Department's Search and Rescue Team, I 
introduced H.R. 2166, the Good Samaritan Search and Recovery Act. This 
legislation requires the Secretary of the Interior and the Secretary of 
Agriculture to expedite access to federal lands to allow for 
individuals or entities acting in a not-for-profit capacity to carry 
about privately requested, Good Samaritan search and recovery missions. 
Additionally, this legislation prevents the Secretaries from requiring 
such entities to obtain a liability insurance policy provided that the 
entity releases the federal government from liability. Lastly, H.R. 
2166 directs the Secretaries to establish local partnerships with Good 
Samaritan search and recovery organizations for the purpose of being 
able to easily mobilize individuals for missions so that families do 
not have to wait months, like families of Keith Goldberg and Antonio 
Tucker, to get closure from the loss of a loved one. Since its 
inception, H.R. 2166 has enjoyed bipartisan support, passing the House 
of Representatives with a unanimous 394-0 vote.
    In closing, I would like to be clear that neither of these examples 
is intended to be an indictment of the men and women who work at Lake 
Mead National Recreation Area, the National Park Service, or any of our 
public lands. They are all dedicated professionals working to the best 
of their ability within the bureaucratic framework that hinders the 
acceptance of good Samaritans offering help. In fact, from the 
beginning I have had an open dialogue with Lake Mead and NPS on this 
issue and in the development of this legislation, and I look forward to 
working with them as we move forward on H.R. 2166.
    Again, I thank Senator Manchin, Senator Barrasso, Senator Landrieu, 
and Senator Murkowski for holding this hearing, and I remain committed 
to working with the Committee, and both the Secretary of the Interior 
and the Secretary of Agriculture to ensure that incidents such as those 
surrounding the deaths of Keith Goldberg and Antonio Tucker do not 
happen again.
                                 ______
                                 
                    Nationals Cattlemen's Beef Association,
                                     Centennial, CO, July 29, 2014.
Hon. Joe Manchin,
Chairman, 306 Hart Senate Office Building, Washington, DC.
Hon. John Barrasso,
Ranking Member, 307 Dirksen Senate Office Building, Washington, DC.
RE: Livestock Industry Concerns over S. 1554, the Hunt Unrestricted on 
National Treasures Act

    Dear Chairman Manchin, Ranking Member Barrasso and members of the 
committee: The Public Lands Council (PLC) and National Cattlemen's Beef 
Association (NCBA) have concerns with the Hunt Unrestricted on National 
Treasures Act (S. 1554). PLC is the only national organization 
dedicated solely to representing the roughly 22,000 ranchers who 
operate on federal lands. NCBA is the beef industry's largest and 
oldest national marketing and trade association, representing American 
cattlemen and women who provide much of the nation's supply of food and 
own or manage a large portion of America's private property.
    The Hunt Unrestricted on National Treasures Act, introduced by 
Senator Martin Heinrich (D-NM) would direct the heads of Federal land 
management agencies to prepare reports on the availability of public 
access and egress to public land for hunting, fishing and other 
recreational purposes. Further, the bill would amend the Land and Water 
Conservation Fund (LWCF) Act of 1965 to provide funding for 
recreational public access to Federal land by purchasing road and trail 
easements, rights-of-way and property from private land owners adjacent 
to inaccessible public lands.
    Provisions included in the bill are concerning to PLC and NCBA. 
Specifically, we believe that the Federal government, who already owns 
approximately 50 percent of land in the west, should not be expanding 
the federal estate by decreasing private land holdings, especially by 
using the LWCF to do so. Further, although the HUNT bill states that 
the sale of easements, rights-of-way, and land would be ``voluntary'', 
that is not always the case as special interest groups have 
historically applied pressure to private landowners to create willing 
sellers. Instead of trying to expand federal land holdings and adding 
to the workload of land management agencies, the bill should focus on 
providing sufficient authorities to allow existing multiple uses and 
property rights on federal lands to be fully realized.
    PLC and NCBA appreciate the opportunity to provide our input on 
behalf of our members--the nation's food and fiber producers. We 
encourage members of the Subcommittee on Public Lands, Forests and 
Mining to consider our concerns before advancing the HUNT Act.
            Sincerely,
                                                 Brice Lee,
                                                     PLC President.
                                                 Bob McCan,
                                                    NCBA President.
                                 ______
                                 
                                                     July 30, 2014.
Hon. Mary Landrieu,
Chairwoman, Committee on Energy and Natural Resources, United States 
        Senate, 703 Hart Senate Office Building, Washington, DC.
Hon. Lisa Murkowski,
Ranking Member, Committee on Energy and Natural Resources, United 
        States Senate, 709 Hart Senate Office Building, Washington, DC.
    Dear Chairwoman Landrieu and Ranking Member Murkowski:
    As sportsmen conservation organizations representing millions of 
hunters, anglers, and wildlife enthusiasts, we ask that you support 
S.1554: The Hunt Unrestricted on National Treasures (HUNT) Act. 
Introduced by Senator Martin Heinrich, this bill would improve 
sportsmen's access to millions of acres of virtually inaccessible 
public lands.
    The concept that this legislation embodies, Making Public Lands 
Public (MPLP), has been a priority for the sportsmen's conservation 
community for over 5 years and worked on through the Hunting and 
Shooting Sports Roundtable (HSSR). The HSSR is made up of 
representatives from organizations and federal land management agencies 
who signed the Federal Lands Hunting, Fishing and Shooting Sports 
Roundtable Memorandum of Understanding (MOU) and who are interested in 
promoting recreational hunting and shooting on federal lands. Over the 
years, the MPLP concept has been introduced in stand-alone legislation, 
included as part of a greater sportsmen's package of bills (S. 2363), 
and funding for access has been included in USFS and BLM annual 
budgets.
    America's 47 million hunters and anglers represent a vital part of 
our nation's heritage and economy, accounting for more than $200 
billion in economic activity and supporting 1.5 million jobs across the 
country. But this key demographic is being threatened by a lack of 
access, an issue that becomes more imposing with each passing year.
    As it currently stands, millions of acres of public lands are 
inaccessible to the American public. These acres are often surrounded 
by private ownership that makes public use nearly impossible. The HUNT 
Act, and the MPLP concept, would not only identify and publish 
landlocked parcels greater than 640 acres, but would designate 1.5 
percent of the Land and Water Conservation Fund (LWCF) toward acquiring 
easements, rights of way, or land acquisitions from willing sellers. 
This funding mechanism provides a strong funding base while ensuring no 
increases in Federal expenditures.
    Dwindling access to public lands remains the greatest threat to 
American sportsmen. The HUNT Act is a necessary and sensible step 
toward providing America's hunters and anglers needed access to 
landlocked public lands, ensuring the continued health, growth, and 
sustainability of the sportsmen's community. This bill should be seen 
as a small investment that is assured to generate huge returns for 
years to come.
            Sincerely,
                                 Archery Trade Association,
                                  Bear Trust International,
                                   Boone and Crockett Club,
                          Bowhunting Preservation Alliance,
                                  Catch-A-Dream Foundation,
                      Congressional Sportsmen's Foundation,
                                        Conservation Force,
                                        Dallas Safari Club,
                                           Delta Waterfowl,
                                           Ducks Unlimited,
                            Izaak Walton League of America,
                          Masters of Foxhounds Association,
                                      Mule Deer Foundation,
                       National Shooting Sports Foundation,
                             National Trappers Association,
                           National Wild Turkey Federation,
                            North American Bear Foundation,
                         North American Grouse Partnership,
                                         Pheasants Forever,
                                   Public Lands Foundation,
                                             Quail Forever,
                       Quality Deer Management Association,
                                     Ruffed Grouse Society,
               Theodore Roosevelt Conservation Partnership,
                                             Tread Lightly,
                                      Whitetails Unlimited,
                                          Wildlife Forever,
                             Wildlife Management Institute,
                                      Wildlife Mississippi.
                                 ______
                                 
          Statement for the Department of Interior, on S. 1554
    Thank you for the opportunity to discuss the views of the 
Department of the Interior on S. 1554, the Hunt Unrestricted on 
National Treasures (HUNT) Act. We appreciate the committee's attention 
to the important issue of hunting, fishing, and recreational access to 
public lands, and we share the sponsor's commitment to assuring access 
to public lands for recreational uses as authorized in applicable land 
use plans. The Department strongly supports the goal of increasing 
recreational access to public lands. However, the Department does not 
support the extensive reporting required by S. 1554 and would like to 
work with the sponsor on the reporting provisions of the bill so the 
bureaus can feasibly meet its requirements as efficiently and 
effectively as possible.
Background
    The Department's bureaus manage 19 percent of the Nation's land 
area, much of it for recreation. Providing access to quality recreation 
on public lands is one of the Department of the Interior's primary 
missions as outlined in the current Strategic Plan which commits to 
improving outdoor recreation access and increasing opportunities for 
public enjoyment of Federal lands and waters. In addition to drawing 
young people outdoors to play, serve, learn, and work, outdoor 
recreation is a significant contributor to the national economy and the 
economies of communities that surround the lands we manage. It is 
important that we make recreational opportunities available in 
communities across the nation, to promote health and fitness, engage 
our youth, and inspire the next generations to conserve and protect 
America's precious resources. In 2012, the Outdoor Industry Association 
reported that recreation activities generate $646 billion dollars in 
spending each year and support 6.1 million jobs. The approximately 417 
million visits to DOI-managed lands in 2012 contributed an estimated 
$45 billion in economic output to the surrounding economies through 
trip-related spending.
    The FY 2014 Consolidated Appropriations Act (PL 113-76) directed 
the Department and the U.S. Forest Service to report to Congress on 
actions they are taking to preserve and improve access to public lands 
for hunting, fishing, shooting and other recreational activities, 
including proposed improvements for public involvement in agency 
decision-making and coordination with State and local governments. The 
Department is finalizing that report and looks forward to sharing it 
with the Congress in the near future, as well as using it as a basis 
for further discussions with the bill's sponsor and the Committee.
            Bureau of Land Management
    The Bureau of Land Management (BLM) manages roughly 245 million 
acres nationwide according to its multiple use and sustained yield 
mission. These public lands receive an estimated 60 million visits 
annually from hunters, anglers, hikers, bikers, OHV riders, climbers, 
boaters, and other recreationists. The BLM actively seeks to improve 
access to public lands and has conducted several comprehensive analyses 
that reported on acres of land with inadequate access. More than 90 
percent of BLM-managed lands are accessible to the public for 
recreational purposes. The BLM continually seeks opportunities to 
acquire access to those public lands which are inaccessible because of 
private or state land ownership patterns that block reasonable access.
    The BLM uses information from these reports as well as input from 
the public during the land use planning process to drive the expansion 
of hunting, fishing, and recreational access opportunities through the 
acquisition of easements, rights-of-ways, and other means. For example, 
recently the BLM acquired the 920-acre Cross Mountain Ranch parcel in 
northwest Colorado using the Land and Water Conservation Fund (LWCF). 
This acquisition opened access to 88,000 acres of public land for 
outstanding fishing, hunting, wildlife watching, and whitewater rafting 
opportunities. The BLM's 2015 funding request for LWCF is $25 million 
for 14 projects in eight states, all of which would provide access to 
public lands that user groups have identified as being high priority. 
BLM field offices are also continually updating local maps and online 
resources such as web-based maps with improved access information that 
incorporate the unique user needs of each local area. In an effort to 
utilize technologies that will allow the public to produce and view web 
maps, the BLM is also developing an interactive web-based interface for 
public to access BLM maps, data, and information.
            National Park Service
    The National Park Service (NPS) manages 84 million acres of land in 
401 national parks across the U.S. Since 1916, the American people have 
entrusted the NPS with the care of their national parks. With the help 
of volunteers and park partners, the NPS is proud to safeguard these 
special places and to share their stories with visitors across the 
nation. Each of these special places reflects a fundamental truth about 
the American experience, whether it is the natural beauty of our lands 
or the historic importance of the people and events that have shaped 
this nation. Our nation's 401 national parks welcomed more than 273.6 
million visitors in 2013, contributed $26.5 billion to the nation's 
economy, and supported 240,000 jobs nationwide.
    The National Park System was created to conserve unimpaired many of 
the world's most magnificent landscapes. They are a remarkable 
collection of places in America for recreation and learning. As 
required by the 1916 Organic Act, these special places must be managed 
in a special way-a way that allows them to be enjoyed not just by those 
who are here today, but also by generations that follow.
    The NPS manages programs that work with and beyond parks to help 
extend the benefits of natural and cultural resource conservation and 
outdoor recreation throughout the country. The NPS supports outdoor 
recreation that connects all Americans to their parks, trails, rivers, 
and other special places. The NPS provides grants to communities for 
the acquisition and development of outdoor recreational resources, and 
to help provide financial and technical assistance to communities 
across the country to eliminate barriers to accessing parks and 
recreational facilities.
    The NPS also manages the 54,000-mile National Trail System, which 
provides recreational opportunities across the nation. These trails 
provide contact with the natural world, which improves the visitor's 
physical and psychological health and reduce stress.
            U.S. Fish and Wildlife Service
    Hunting and fishing are two priority public uses of the National 
Wildlife Refuge System. Over 500 national wildlife refuges and wetland 
management districts are open for fishing, wildlife watching, hunting, 
photography and other forms of recreation. Currently, 335 national 
wildlife refuges are open for hunting and 271 are open for fishing.
    As a way to improve access for all Americans, the U.S. Fish and 
Wildlife Service (FWS) manages over 3,500 small outdoor recreation 
facilities on national wildlife refuges that are accessible for 
hunters, anglers, and other outdoor enthusiasts. These include boat 
ramps, hunting blinds, trails, fishing piers, boardwalks, visitor 
contact stations, interpretive kiosks, and observation platforms. These 
small facilities are supported by a network of well managed roads and 
trails that enhance access for the public. In Fiscal Year 2013, nearly 
50 million National Wildlife Refuge System visitors took advantage of 
2,700 special events and hundreds of quality hunting and fishing 
opportunities. Based upon public surveys, on average, 90 percent of 
visitors to national wildlife refuges gave high marks on their overall 
experiences, the responsiveness of staff, and access to our facilities 
and programs.
    Refuges rely upon comprehensive conservation plans to identify 
areas to be opened to the public and are required to undertake 
appropriate use and compatibility reviews before new recreation 
programs can be offered. Refuge Managers often need to balance 
interests in opening new public use areas against other management 
considerations, such as emergency closures to protect critical 
resources that may change frequently. While supporting greater 
appropriate and compatible recreation on refuges, managers are mindful 
not to overbuild access points that could contribute to larger deferred 
maintenance backlogs or create potential conflicts with our habitat 
management goals.
S. 1554
    S. 1554 would require the BLM, NPS, FWS, and the U.S. Forest 
Service, to produce a report, within 180 days and annually thereafter, 
identifying all parcels greater than 640 acres for which hunting, 
fishing, or recreational uses are allowed by law but public access is 
inadequate or unavailable. S. 1554 further requires the agencies to 
analyze whether that list of parcels has significant potential to be 
used for hunting, fishing, or recreation--and if so, to develop a plan 
that outlines the most reasonable course of actions needed to obtain or 
acquire access. The bill also requires that within one year, the 
agencies make available on a website a list of roads and trails that 
are the primary access and egress for all parcels greater than 640 
acres.
    The Department of the Interior supports the goal of collecting and 
making information about recreational access available to the public. 
However, we are concerned about the volume of data collection and 
analysis the bill would require, and would like to work with the 
sponsor and the Committee on an approach to prioritize the areas to be 
analyzed. Such reporting would help the Department prioritize 
recreation access projects. Further, we recommend that the sponsor 
exclude from the hunting access reporting requirement areas where 
hunting is not authorized by law, such as in certain units of the 
National Park System. We look forward to working with the sponsor and 
the Committee to outline specific reporting requirements that could be 
successfully achieved given available staff and resources to meet the 
public's need for information.
    S. 1554 also amends LWCF to require not less than 1.5 percent of 
the funds go to public access. The Department supports the goals of 
providing acquisition of easements, rights-of-way, and fee title 
acquisitions for the purpose of enhancing access to public lands, but 
we would like to note that a permanent set-aside may be premature, and 
access issues can be addressed administratively through the bureaus' 
annual LWCF prioritization process.
Conclusion
    The Department strongly supports the goal of increasing access to 
public lands for hunting, fishing and other recreational purposes and 
we support making information about opportunities for public access 
available to the public. The Department would like to work with the 
sponsor and the committee to ensure that the bill's reporting 
requirements can be met given existing data and staffing limitations.
                         s. 1049 and h.r. 2166
    Mr. Chairman and members of the subcommittee, thank you for the 
opportunity to present the views of the Department of the Interior on 
S. 1049 and H.R. 2166, bills to direct the Secretary of the Interior 
and Secretary of Agriculture to expedite access to certain Federal 
lands under the administrative jurisdiction of each Secretary for good 
Samaritan search-and-recovery missions, and for other purposes.
    The Department supports S. 1049 and H.R. 2166 with amendments.
    S. 1049 and H.R. 2166 would require the Secretary of the Interior 
and Secretary of Agriculture (Secretaries) to develop and implement a 
process to expedite access to federal lands for eligible organizations 
and individuals who request access to Federal lands to conduct good 
Samaritan search and recovery missions. The bills would require these 
procedures to include provisions clarifying that such groups are not 
considered Federal volunteers, and exempting such groups from the 
Volunteers in the Parks Act of 1969, the Federal Tort Claims Act, and 
the Federal Employee Compensation Act. The bills would also prohibit 
the Secretaries from requiring such organizations or individuals to 
have liability insurance as a condition of accessing federal lands if 
they acknowledge and consent, in writing, that they understand they are 
not protected under federal law and sign a waiver releasing the federal 
government from all liability related to the access granted.
    The bills would require the Secretaries to notify an eligible 
organization or individual of the approval or denial of a request 
within 48 hours after the request is made and, in the case of a denial, 
notify the organization or individual of the reason for denial and any 
actions that they can take to meet the requirements for the request to 
be approved. The bills would also require the Secretaries to develop 
partnerships with search-and-recovery organizations to coordinate and 
expedite good Samaritan search-and-recovery missions on federal lands. 
Within 180 days after enactment, the bills would require the 
Secretaries to submit a joint report to Congress describing plans to 
develop partnerships and efforts being taken to expedite and accelerate 
good Samaritan search-and-recovery mission efforts on federal lands.
    We believe that we can work with the sponsor and the committee to 
amend S. 1049 and H.R. 2166 so that they would facilitate this process, 
without creating an undue burden on the land management bureaus or the 
applicants.
    We recommend amending the bills to ensure that the document 
required to be signed as a condition of accessing federal lands both 
waives rights, claims, and causes of action against the United States, 
and releases the United States from liability. This would provide more 
comprehensive protection for the federal government against lawsuits 
than the legislation does as currently written.
    We also recommend amending the bills to provide 2 business days, 
rather than 48 hours, for the approval or denial of a permit, and the 
time period for approval or denial would start only after the land 
management agency has received a complete application. This would make 
the permit approval process more practical, as land management agencies 
may not have staff available to process permits after the close of 
business or on weekends.
    In addition, we note technical issues with the definitions 
contained in the bills. For example, the meaning of the term "not-for 
profit capacity," which is used in the definition of eligible 
organization and eligible individuals, is not clear. The requirement 
that eligible organizations and eligible individuals have certification 
in training that meets or exceeds standards established by the American 
Society for Testing and Materials is not needed, in our view, because 
federal agencies use other standards for verifying a prospective 
provider's qualifications and medical/fitness level.
    With the amendments described in this statement, the Department 
believes that the legislation would allow expedited access for good 
Samaritan search-and-recovery missions without complicating existing 
procedures, or causing unintended impacts to existing relationships 
between federal agencies and search organizations. We would welcome the 
opportunity to work with the bills' sponsors and this committee on 
these amendments.
    Mr. Chairman, this concludes this statement.
                                s. 1605
    Thank you for the opportunity to present a statement for the record 
on S. 1605, a bill for the relief of Michael G. Faber. The Department 
of the Interior (Department) does not oppose S. 1605, but has concerns 
about the Secretary's ability to provide the relief the bill contains.
Background
    S. 1605 is an individual relief bill on behalf of Michael G. Faber. 
Mr. Faber is a Tsimshian Indian with family roots in Southeast Alaska. 
Mr. Faber was initially granted membership and stock in 1973 in the 
Sealaska Native Regional Corporation (Sealaska). Sealaska is made up of 
Southeast Alaska Natives formed as a result of the aboriginal land 
claims settlement between the Federal Government and Alaska Natives 
accomplished through passage of the Alaska Native Claims Settlement 
Act, ANCSA, of 1971.
    During the original enrollment process following passage of the 
Alaska Native Claims Settlement Act, Mr. Faber enrolled in the Sealaska 
Corporation, the tenth of the thirteen corporations created by the Act, 
along with other members of his family. Mr. Faber's enrollment was 
approved by the Bureau of Indian Affairs, and he received Sealaska 
share number 13-752-39665-01, and an initial 100 shares of stock in the 
Sealaska Corporation. The family lived in Metlakatla, Alaska prior to 
passage of the claims act, and by the time of implementation of the act 
had moved to Juneau, AK.
    At some point in 1976, while Mr. Faber was on duty with the Army, 
and had an out-of-Alaska mailing address, the BIA apparently moved to 
shift his enrollment from Sealaska to the then newly created 13th 
Regional Corporation. This 13th Regional Corporation was intended to 
serve the needs of Alaska Natives living outside of Alaska. Mr. Faber 
was shifted to the out-of-state 13th Regional Corporation in late 1976 
due to a clerical error by the Bureau of Indian Affairs (BIA). Although 
the BIA transferred Mr. Faber to the 13th Regional Corporation, it 
appears Mr. Faber did not actually request or approve the transfer of 
his corporate enrollment. Subsequently, in 1992, Mr. Faber formally 
enrolled in the Metlakatla Indian Community of the Annette Indian 
Reserve, and thereby formally renounced eligibility for benefits or 
shareholder status in any Native Corporation established under ANCSA.
S. 1605
    S. 1605 seeks to authorize Mr. Faber's reinstatement to the 
Sealaska roll by directing the Secretary of the Interior to reinstate 
Mr. Faber to the shareholder roll of Sealaska Corporation, and directs 
the Secretary to ``ensure the provision to the affected individual of 
the number of shares originally allocated to the affected individual by 
Sealaska Corporation.''
    While the Department does not oppose the relief contemplated by S. 
1605, we are concerned that the Secretary lacks the authority to grant 
all such relief. While the Secretary may be able to correct the Alaska 
Native Roll with passage of the legislation, ensuring the issuance of 
stock to Mr. Faber in Sealaska, a for-profit corporation chartered 
under the laws of the State of Alaska, is beyond the authority of the 
Secretary.
    This concludes the Department's statement for the record.
                                s. 2123
    Thank you for the opportunity to present the Department of the 
Interior's views on S. 2123, the School District 318 Land Exchange Act, 
which directs the Secretary to accept an offer to exchange certain 
Federal and non-Federal parcels of land in Grand Rapids, Minnesota. The 
Department supports S. 2123, which is a thoughtful effort toward 
resolving a long-standing request of School District 318.
    The bill directs the Secretary of the Interior to (1) accept an 
offer by the Minnesota Independent School District number 318 in Grand 
Rapids, Minnesota, to convey to the United States approximately 1.6 
acres of specified non-federal land (including any structures on it), 
and (2) convey to the District in exchange approximately 1.3 acres of 
specified U.S. Geological Survey (USGS) land. The Federal land 
described in the bill adjoins Robert J. Elkington Middle School. The 
Federal land is used to store equipment and vehicles and because of its 
proximity to the campus, as well as the security fencing, it is 
suitable for management by the School District. The non-Federal land to 
be exchanged is closer to the USGS Minnesota Water Science Center and 
has better access to that facility. All structures on the Federal and 
non-Federal land are to be included in the exchange. School District 
318 and the USGS have discussed exchanging these parcels of land for 
over a decade and so we appreciate Senator Franken introducing S. 2123 
to resolve this matter through legislation.
    The bill requires valuation by an independent appraiser in 
accordance with the Uniform Appraisal Standards for Federal land 
acquisitions as applicable to land exchanges. The values of the Federal 
and non-Federal lands to be exchanged would be equalized by payment to 
the Secretary. We note two technical components of the bill that we 
feel we can work with the committee to provide additional clarity. 
First, the bill does not address the issue of equalization in the event 
the value of the non-Federal land to be exchanged exceeds the value of 
the Federal land. Second, S. 2123 does not address the issue of which 
parties to the exchange will assume the responsibility of funding the 
property valuation. We look forward to working with the Committee to 
address these technical issues.
    Thank you for the opportunity to present the views of the 
Department on S. 2123. We appreciate the efforts of the sponsors and 
the Committee to resolve this long-standing issue.

                              [all]
                              
                              
                              

      
</pre></body></html>
